1a
In the
United States Court of Appeals
For the Seventh Circuit
-----------------------------------------------------------------------

NO. 16-3055
LEIBUNDGUTH STORAGE & VAN SERVICE, INC.,
Plaintiff-Appellant,
v.
VILLAGE OF DOWNERS GROVE, ILLINOIS,
Defendant-Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 14 C 9851 – Edmond E. Chang, Judge.
-----------------------------------------------------------------------

ARGUED MARCH 27, 2017 – DECIDED SEPTEMBER 24, 2019
-----------------------------------------------------------------------

Before BAUER and EASTERBROOK, Circuit Judges,
and DEGUILIO, District Judge.*
EASTERBROOK, Circuit Judge. An ordinance in
Downers Grove, Illinois, limits the size and location of
signs. Leibundguth Storage & Van Service contends
that this ordinance violates the First Amendment to
the Constitution (applied to the states by the Fourteenth) because it is riddled with exceptions and therefore is a form of content discrimination that the Village
has not justified. See Reed v. Gilbert, 135 S. Ct. 2218
* Of the Northern District of Indiana, sitting by designation.

2a
(2015). But because the principal topic of the ordinance
is commercial speech, the district court concluded that
Central Hudson Gas & Electric Corp. v. Public Service
Commission, 447 U.S. 557 (1980), rather than Reed
supplies the rule of decision, and it found the ordinance
valid. Peterson v. Village of Downers Grove, 150
F. Supp. 3d 910 (N.D. Ill. 2015). We conclude that,
whether or not Reed applies, this does not do Leibundguth any good because it is not affected by the problematic exceptions.
Downers Grove has a comprehensive ordinance
regulating signs. Section 9.020 sets out rules for all
signs, including a rule prohibiting “any sign painted directly on a wall” (§ 9.020.P). Section 9.050.A sets a size
limit: for buildings such as Leibundguth’s, which are
closer than 300 feet to a street, the maximum is 1.5
square feet per linear foot of frontage—which implies
a limit of 159 square feet for Leibundguth’s building.
Section 9.050.C.1 provides that each business may
have only one sign, though an amendment in 2015 allows businesses that face both a street and a railroad
an extra sign on the railroad side. Section 9.030 creates
exceptions: the ordinance does not require permits for
holiday decorations (§ 9.030.D), temporary signs for
personal events such as birthdays (§ 9.030.E), “[n]oncommercial flags” (§ 9.030.G) (flags can be used to send
political messages), political and noncommercial signs
that do not exceed 12 square feet (§ 9.030.I), “[m]emorial signs and tablets” (§ 9.030.K), and about a dozen
more. These exclusions set up Leibundguth’s argument

3a
that the ordinance represents content discrimination
prohibited by Reed.
The Village insists that the ordinance regulates
commercial speech only. We need not decide which decision—Reed or Central Hudson—must give way when
a commercial-sign law includes content discrimination. (One circuit recently held that Reed supersedes
Central Hudson. See Thomas v. Bright, 2019 U.S. App.
LEXIS 27364 (6th Cir. Sept. 11, 2019).) This ordinance
is comprehensive. Section 9.010.B tells us so: “The regulations of this article apply to all signs in the village,
unless otherwise expressly stated.” And if that were
not clear enough, the exceptions are revealing. Why exclude modestly sized political signs (§ 9.030.I) from the
permit requirement unless they are included for other
purposes?
Suppose we were to hold that commercial signs
must be treated the same as flags and political signs.
Leibundguth’s problems come from the ordinance’s
size and surface limits, not from any content distinctions. One of Leibundguth’s signs is painted on a wall;
another is too large; a third wall has two signs (as the
Village counts them); and the size of these signs, conceded to exceed 500 square feet, vastly exceeds the
limit of 159 square feet for Leibundguth’s building
(and the limit of 12 square feet for political signs).
Let us start with the largest of Leibundguth’s
signs, which faces the railroad tracks—and which Leibundguth tells us leads to as much as 20% of its

4a
revenue, by appealing to commuters who see the sign
when going to and from work.

This sign is 40 feet long and 10 feet high, or 400
square feet. It is painted on a brick wall. The ordinance’s size limit and no-paint-on-walls rules independently forbid this sign. It would fare no better if it
were a flag or carried a political message. It exceeds 12
square feet, so it would not be saved by § 9.030.I. And
the exemptions for flags (§ 9.030.G) and political signs
pertain only to the permit requirement; they do not exempt flags or political signs from § 9.020.P, which bars
signs painted on walls. Likewise with the exception for
temporary signs (§ 9.030.E)—not that “temporary” is a
form of content discrimination in the first place. Anyway, Leibundguth does not want to use temporary
signs.
Leibundguth insists that the exclusions in § 9.030
remove the size and no-paint-on-walls rules for flags
and other listed subjects. But that’s not what § 9.030
itself says. It begins by stating that the excluded signs
do not require permits; it does not say that rules for all
signs stated elsewhere in the ordinance drop out.

5a
Section 9.010.B says that all of the ordinance’s rules
apply to all signs unless they are “expressly” excluded;
§ 9.030 does not expressly remove any signs from the
size and no-paint-on-walls rules. Leibundguth’s argument rests on a report prepared by a Village official
suggesting that the ordinance does not prohibit purely
decorative murals and flags. But the Village itself disclaims this non-textual reading. The Village’s understanding of its own ordinance carries the day, see
Forsyth County v. Nationalist Movement, 505 U.S. 123,
131 (1992), in the absence of some indication that it
has enforced the ordinance in a way that permits large
political signs or flags painted on walls. See Construction & General Laborers’ Union v. Grand Chute, 915
F.3d 1120 (7th Cir. 2019). And Leibundguth has not offered any evidence that the Village has enforced the
ordinance as Leibundguth reads it, rather than as how
the Village tells us the ordinance works.
A limit on the size and presentation of signs is a
standard time, place, and manner rule, a form of aesthetic zoning. The Supreme Court has told us that aesthetic limits on signs are compatible with the First
Amendment. Members of City Council v. Taxpayers for
Vincent, 466 U.S. 789, 810–12 (1984). Like other time,
place, and manner restrictions, an aesthetic rule
must serve its ends; it cannot be arbitrary. The rule
must be justified without reference to the content or
viewpoint of speech, must serve a significant government interest, and must leave open ample channels for
communication. See Clark v. Community for Creative
Non-Violence, 468 U.S. 288, 293 (1984).

6a
As the district court explained, 150 F. Supp. 3d at
922–24, the Village gathered evidence that signs
painted on walls tend to deteriorate faster than other
signs (Leibundguth’s own sign is full of chipped paint
and flaking bricks) and, when revised or painted over,
can become downright ugly. Old paint may show
through; efforts to remove paint may leave a ghost image or bleach the brick so that the building becomes
mottled. Leibundguth tells us that those effects are too
slight to justify legislation, but de gustibus non disputandum est. (“There’s no accounting for taste.”) People’s
aesthetic reactions are what they are; if a large number of people find paint-on-brick ugly, and paint-overpaint-on-brick worse, this is a raw fact that a governmental body may consider. It need not try to prove that
aesthetic judgments are right.
Likewise with size. Many people view signs as a
necessary evil and believe that smaller = less evil. Unless the government has engaged in content or viewpoint discrimination, that aesthetic judgment supports
legislation. The Village’s ordinance contains content
discrimination, but as we have explained that discrimination does not aggrieve Leibundguth. And the parties agree that enforcement of the sign ordinance
leaves open plenty of ways to communicate. Advertising does not depend on applying paint to brick—and
although 159 square feet of signage on Leibundguth’s
building is less than it prefers to use, 159 square feet
is still a large sign. Leibundguth also is free to advertise in print or over the Internet.

7a
The parties dispute how the Village’s ordinance
applies to the signs on two other faces of Leibundguth’s
building, but none of the possibilities poses a constitutional issue distinct from the ones we have already addressed. What we have said is enough to show that the
ordinance, as applied to Leibundguth, does not violate
the First Amendment.
AFFIRMED

8a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

FOR THE

)
)
)
)
) No. 14 C 09851
Plaintiffs,
)
v.
) Judge Edmond E. Chang
VILLAGE OF DOWNERS )
)
GROVE,
)
Defendant.
)
ROBERT PETERSON
and LEIBUNDGUTH
STORAGE & VAN
SERVICE, INC.,

MEMORANDUM OPINION AND ORDER
(Filed Dec. 14, 2015)
Plaintiffs Robert Peterson and Leibundguth Storage
& Van Service, Inc. sued the Village of Downers Grove
to challenge the constitutionality of the Village’s Sign
Ordinance. R. 1, Compl.1 Plaintiffs contend that several sections of the Village’s revised Ordinance, which
was originally adopted in 2005 but later amended, violate the First and Fourteenth Amendments, as well as
Article I, Section 4 of the Illinois Constitution.2 Plaintiffs focus their challenge on the following restrictions
1

Citations to the record are “R.” followed by the docket number then the page or paragraph number.
2
This Court has subject-matter jurisdiction over the federal
issue under 28 U.S.C. § 331, and supplemental jurisdiction over
the state-law claim under 28 U.S.C. § 1367(a).

9a
in the Sign Ordinance: its restriction on painted wall
signs, on signs that do not face a roadway or drivable
right-of-way, and on the total sign area and number of
wall signs permitted on a single lot. Id. Earlier in the
case, the Court dismissed Peterson as named plaintiff
(because really his corporation is the sole proper
plaintiff ), R. 29 at 10-12 (April 2015 Opinion), leaving
Leibundguth Storage & Van Service, Inc. as the only
remaining plaintiff. Both parties have now moved for
summary judgment. R. 35, Def.’s Mot. for Summ. Judgment; R. 39, Pl.’s Mot. for Summ. Judgment. For the
reasons set forth below, the Court grants the Village’s
motion, and denies Leibundguth’s.
I.

Background

The nature of Leibundguth’s claims are set forth
in detail in the April 2015 opinion [R. 29] that denied
the Village’s motion to dismiss. Peterson et al v. Village
of Downers Grove, 2015 WL 1929737, at *1-3 (N.D. Ill.
April 27, 2015). The relevant facts are largely undisputed.
A.

Leibundguth’s Signs

Robert Peterson is a resident of Downers Grove,
Illinois. R. 38-4, Exh. 5, Peterson Depo. at 15. He has
owned Leibundguth Storage & Van Service, Inc., which
provides moving and storage services, since the mid1980s. Id. at 24. Leibundguth operates out of a building located between Warren Avenue and the Metra

10a
commuter-railway tracks in the Village of Downers
Grove. R. 40, PSOF ¶ 5.3
On the building’s north and south facing walls,
signs can be found advertising Leibundguth’s business.
On the south wall, a sign has been painted directly
onto the brick, which reads “Leibundguth Storage and
Van Service / Wheaton World Wide Movers.” PSOF ¶ 7;
R. 10, Am. Compl. ¶ 16; Peterson Depo., Exh. B at 10.
The company’s phone number is also listed. Am.
Compl. ¶ 16. The sign looks like this:

3

Citations to the parties’ Local Rule 56.1 Statements of Fact
are “DSOF” (for the Village’s Statement of Facts) [R. 37; R. 38];
“PSOF” (for Leibundguth’s Statement of Facts) [R. 40]; “Pl.’s
Resp. DSOF” (for Leibundguth’s Response to the Village’s Statement of Facts) [R. 40]; and “Def.’s Resp. PSOF” (for the Village’s
Response to Leibundguth’s Statement of Facts) [R. 46]. In several
instances, the parties submitted their Statement of Facts and
their responses/replies to the opposing party’s Statement of Facts
in a single document. As a point of clarification, the paragraph
numbers referenced in the Court’s citations to these Statements
refer to that portion of the document being referenced. For example, PSOF ¶ 1 refers to paragraph 1 of Leibundguth’s Statement
of Facts, which begins on page 16 of R. 40. Finally, where a fact is
admitted, only the asserting party’s statement of facts is cited;
where an assertion is otherwise challenged, it is so noted.

11a

Id. ¶ 1. The sign is 40 feet long, 10 feet high, and is
directly visible to commuters riding by on Metra trains
into and out of Chicago. Id. ¶ 16; PSOF ¶ 7. The sign
does not face a roadway and is not visible to drivers.
Am. Compl. ¶ 17; PSOF ¶ 5. According to Leibundguth,
this sign brings in around 12 to 15 potential new customers each month, and generates between $40,000
and $60,000 in revenue per year, or about 15 to 20 percent of the company’s annual revenue. Am. Compl.
¶ 18; PSOF ¶ 16.
On the front of the building, which faces north,
Leibundguth has several signs. Leibundguth has another painted wall sign, which lists the company’s
name and phone number. Am. Compl ¶ 19; PSOF, ¶ 9.
This sign is 40 feet long and 2 feet high, and is visible
to drivers. Am. Compl. ¶ 19. It looks like this:

12a

Id.
Leibundguth also has a separate sign (also on the
front of the building) which spells out the company’s
name, “Leibundguth Storage & Van Service,” in red
and white (primarily white) hand-painted block letters. PSOF ¶ 11; Am. Compl. ¶ 21. Directly beneath
those words is a rectangular sign, which advertises
Leibundguth’s relationship with “Wheaton World Wide
Moving,” a long-distance mover. PSOF ¶ 12. Neither of
these signs is painted directly onto the building’s exterior, but both face a roadway and can be seen by drivers. Am. Compl. ¶ 22. The portion of the sign spelling
out the company’s name is 19 feet long by two feet high,
and the portion referencing Wheaton World Wide Moving is seven feet long by four feet high. Am. Compl.
¶¶ 20-21. These signs look like this:

13a

Id. ¶ 21. The parties dispute whether the pictured
sign(s) are one sign or two. Leibundguth argues two;
the Village, one. PSOF ¶ 6; R. 46, Def.’s Resp. to PSOF
¶¶ 6, 11-12. In total, Leibundguth’s signs cover more
than 500 square feet of the building. Am. Compl. ¶ 42
(Leibundguth suggests they cover about 550 sq. ft.); R.
12, Ans. to Am. Compl ¶¶ 16, 19-20 (the Village asserts
they cover about 665 sq. ft.).
B.

The Village’s Sign Ordinance

In May 2005, the Village of Downers Grove
amended its sign ordinance, reducing the amount of
signage permitted and prohibiting certain types of
signs altogether. DSOF ¶ 15. (The Village’s sign ordinance is contained in Article 9 of the Village’s municipal code; for convenience’s sake, this Opinion will refer
to Article 9 as the “Sign Ordinance.”) The Sign Ordinance’s stated purpose is “to create a comprehensive
but balanced system of sign regulations to promote effective communication and to prevent placement of
signs that are potentially harmful to motorized and

14a
non-motorized traffic safety, property values, business
opportunities and community appearance.” R. 38-1,
Exh. 2, Sign Ord. § 9.010(A).
Three of the Sign Ordinance’s restrictions directly
apply to Leibundguth’s signs by banning painted wall
signs; setting a cap on total square footage of signage;
and setting a cap on the total number of wall signs.
More specifically, the Ordinance prohibits “any sign
painted directly on a wall, roof, or fence.” Id. § 9.020(P).
It limits the “maximum allowable sign area” for each
property to 1.5 square feet per linear foot of frontage
(two square feet per linear foot if the building is set
back more than 300 feet from the street), in no case to
“exceed 300 square feet in total sign surface area.” Id.
§ 9.050(A). And finally, it limits the number of wall
signs a lot may display to “one wall sign per tenant
frontage along a public roadway or drivable right-ofway.” Id. § 9.050(C)(1). As originally enacted, this last
provision prevented a property owner from displaying
a sign facing the BNSF railroad, because such a sign
would not be facing a roadway or drivable right-of-way.
After Leibundguth filed this lawsuit, however, the Village amended this portion of the ordinance to allow
“lots with frontage along the BNSF railroad” to display
“one additional wall sign” facing the railroad, but limited the sign area to 1.5 square feet per linear foot of
frontage along the BNSF railroad right-of-way. Def.’s
Br., Exh. B, Am. Sign Ord. § 9.050(C)(5).
Leibundguth also points to § 9.030 of the Village’s
Sign Ordinance to show that the restrictions that apply to it are content-based. Pl.’s Br. at 16-20. Section

15a
9.030 of the Sign Ordinance exempts certain signs—
not Leibundguth’s—from needing to obtain a sign permit and subjects those signs, which it identifies based
on the type of sign being displayed, to different size restrictions. Sign Ord. § 9.030. For example, it exempts
(among other signs) Governmental Signs, Railroad and
Utility Signs, Street Address Signs, Noncommercial
Flags, Real Estate Signs, Decorations displayed in connection with a Village-sponsored event, “No Trespassing” Notices, “Political and noncommercial signs,” and
“Memorial signs and tablets” from needing to obtain a
permit. Id. Some of the listed exemptions remain subject to size restrictions, such as “Political and noncommercial signs,” which “may not exceed a maximum
area of 12 square feet per lot,” id. § 9.030(I), while others are not subject to any size restrictions at all, such
as Governmental Signs and Noncommercial Flags, id.
§ 9.030(A), (G). None of the listed exemptions, however,
are subject to the one wall-sign restriction in § 9.050(C)
that Leibundguth is. The Village says that all signs
(whether exempted under § 9.030 or not) remain subject to the prohibitions laid out in § 9.020, including the
restriction on painted wall signs found in § 9.020(P)
(but the square-footage and number-of-signs restrictions
are not in § 9.020, so those restrictions do not apply to
the exempted signs). DSOF ¶ 6.
Leibundguth’s signs violate the Sign Ordinance in
a number of ways. The Ordinance’s ban on signs painted
directly onto walls makes Leibundguth’s Metra-facing
advertisement and its similar, smaller sign on the front
of the building unlawful. PSOF ¶¶ 8-9. The Ordinance

16a
also only allows the company 159 square feet for all of
its signs (calculated at 1.5 square feet per linear foot of
frontage, because Leibundguth’s building is not set
back more than 300 feet from the street), far less than
the more than 500 square feet of advertising the company currently displays. PSOF ¶¶ 8-9, 13; Am. Compl.
¶ 41. And, according to Leibundguth, the Ordinance
also prohibits its combined block-letter wall sign and
Wheaton World Wide Moving sign, because only one
wall sign can be displayed on a given wall and these
signs constitute two signs. PSOF ¶¶ 11-13. The Village,
of course, disputes this last point, whether Leibundguth’s block-letter wall sign and Wheaton World Wide
Moving sign constitute one or two signs. Def.’s Resp.
PSOF ¶¶ 11-12.
When enacted, the Sign Ordinance established a
grace period, giving property owners and businesses
until May 2014 to bring any non-conforming signs into
compliance. DSOF ¶¶ 15-16; R. 37-4, Exh. 1D at 349,
3524. During that time, Leibundguth applied with the
Downers Grove Zoning Board of Appeals for a variance
that would allow the company to have a Metra-facing
sign, painted wall signs, and total signage area that
exceeded the maximum allowed under the ordinance.
PSOF ¶ 18; R. 40-5, Exh. D at 2. The Zoning Board denied Leibundguth’s request, and instead gave Leibundguth a four-month window (until April 2014) in
which to paint over its painted wall signs with a solid
color. PSOF ¶¶ 18-19; R. 40-2, Exh. A at 2-9. With the
4

The page numbers associated with Exhibit 1D refer to the
pagination in the PDF.

17a
compliance period long over, and with Leibundguth’s
signs still not in compliance, Leibundguth could face
fines of up to $750 per violation per day. Am. Compl.
¶ 63; R. 10-5, Exh. E, Village Muni. Code § 1.15(a). The
Village has, however, agreed not to enforce the Sign Ordinance against Leibundguth and not to assess any
fines during the pendency of these summary judgment
motions. R. 11, Minute Entry dated Jan. 30, 2015.
C.

The Lawsuit

Leibundguth (and at the time, Peterson too) sued
the Village in December 2014. R. 1, Compl. In Count
One of Leibundguth’s amended complaint, Leibundguth challenges the “sign ordinance’s content-based
restrictions.” Pointing to § 9.030 explicitly and § 9.050
implicitly, Leibundguth alleges that the size and number restrictions included in the Village’s Sign Ordinance are impermissible content-based restrictions
that violate the First Amendment. R. 10, Am. Compl.
¶¶ 65-74. In Counts Two, Three and Four, Leibundguth
challenges the Sign Ordinance’s ban on painted wall
signs; its ban on signs that do not face a roadway or
drivable right-of-way (this provision has since been
amended); and its limit on total signage area and on
the number of permitted wall signs. Id. ¶¶ 75-95. According to Leibundguth, these restrictions violate the
First Amendment because the Village lacks “a compelling, important, or even rational justification” for them,
because they are not narrowly tailored to advance the
Village’s purported interests in traffic safety and aesthetics, and because they are more extensive than

18a
necessary to advance the Village’s interests. Id. ¶¶ 7780, 84-87, 91-94. Leibundguth seeks a declaratory
judgment that the Sign Ordinance violates the First
and Fourteenth Amendments of the United States
Constitution and Article I, Section 4 of the Illinois Constitution; a permanent injunction against enforcing
the Sign Ordinance; one dollar in nominal damages;
and costs and attorneys’ fees. Id. ¶¶ A-G.
II.

Legal Standard

Summary judgment is proper “if the movant shows
that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). A genuine dispute exists if
“the evidence is such that a reasonable jury could return a verdict for the nonmoving party.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). In evaluating summary judgment motions, courts must view
the facts and draw reasonable inferences in the light
most favorable to the non-moving party. Scott v. Harris,
550 U.S. 372, 378 (2007). The Court may not weigh conflicting evidence or make credibility determinations,
Omnicare, Inc. v. UnitedHealth Grp., Inc., 629 F.3d 697,
704 (7th Cir. 2011), and must consider only evidence
that can “be presented in a form that would be admissible in evidence” at trial, Fed. R. Civ. P. 56(c)(2). The
party seeking summary judgment has the initial burden of showing that there is no genuine dispute and
that they are entitled to judgment as a matter of law.
Carmichael v. Village of Palatine, 605 F.3d 451, 460
(7th Cir. 2010); see also Celotex Corp. v. Catrett, 477 U.S.

19a
317, 323 (1986); Wheeler v. Lawson, 539 F.3d 629, 634
(7th Cir. 2008). If this burden is met, the adverse party
must then “set forth specific facts showing that there
is a genuine issue for trial.” Anderson, 477 U.S. at 256.
On cross motions for summary judgment, the Court assesses whether each movant has satisfied the requirements of Rule 56. See Cont’l Cas. Co. v. Nw. Nat’l Ins.
Co., 427 F.3d 1038, 1041 (7th Cir. 2005); see also Laskin
v. Siegel, 728 F.3d 731, 734 (7th Cir. 2013).
III.

Analysis

Leibundguth challenges the following restrictions
in the Village’s Sign Ordinance, which impact Leibundguth’s signs: its restriction on painted wall signs, see
Sign Ord. § 9.020(P); its requirement that wall signs
face a roadway or drivable right-of-way, id. § 9.050(C);
and its restriction on the maximum total sign area permitted on a given lot and on the number of wall signs
that may displayed on a building, id. § 9.050(A) and
(C). Leibundguth argues in the alternative that, in the
event the Court finds that these restrictions do not violate the First Amendment as applied to Leibundguth,
they nonetheless constitute facially impermissible
content-based restrictions on speech. Pl.’s Br. at 16.
A.

Painted Wall Signs

Leibundguth’s first challenge is to the Sign Ordinance’s restriction on painted wall signs. Sign Ord.
§ 9.020(P). This section prohibits “any sign painted
directly on a wall, roof, or fence.” Id. According to

20a
Leibundguth, this section violates the First Amendment because it does not advance “a compelling, important, or even rational” government interest, and it
is not narrowly tailored to serve the Village’s purported interests in traffic safety and aesthetics. Pl.’s Br.
at 2.
Neither party disputes whether signs are a form
of expression protected by the First Amendment, and
for good reason. See City of Ladue v. Gilleo, 512 U.S. 43,
48 (1994) (noting that “signs are a form of expression
protected by the Free Speech Clause” of the First
Amendment). The Supreme Court has explained, however, that signs “pose distinctive problems that are
subject to municipalities’ police powers. Unlike oral
speech, signs take up space and may obstruct views,
distract motorists, displace alternative uses for land,
and pose other problems that legitimately call for regulation.” Id. Thus, municipalities, like the Village, generally may “regulate the physical characteristics of
signs,” within reasonable bounds. Id.
Both parties agree that the Sign Ordinance’s ban
on painted wall signs constitutes a time, place, and
manner restriction. Pl.’s Br. at 2; Def.’s Br. at 7. The
Village may enforce a time, place, and manner restriction without violating the First Amendment if the
restriction is: (1) content-neutral, (2) narrowly tailored
to serve a significant government interest, and (3)
leaves open ample alternative channels of communication. Clark v. Cmty. for Creative Non-Violence, 468 U.S.
288, 293 (1984); Ward v. Rock Against Racism, 491 U.S.
781, 791 (1989); DiMa Corp. v. Town of Hallie, 185 F.3d

21a
823, 828 (7th Cir. 1999). The Village bears the burden
of proving that its restriction on painted wall signs
meets these requirements. United States v. Playboy
Entm’t Grp., Inc., 529 U.S. 803, 816 (2000).
As to the first element, the Village has satisfied
its burden: its ban on painted wall signs, § 9.020(P), is
content-neutral. To be content-neutral, a regulation
must not restrict speech “because of its message, its
ideas, its subject matter, or its content.” Reed v. Town
of Gilbert, 135 S.Ct. 2218, 2226 (2015). If a regulation
“appl[ies] to particular speech because of the topic discussed or idea or message expressed,” then that regulation is content-based. Id. at 2227. Likewise, if the
government adopts a regulation of speech “because of
disagreement with the message [the speech] conveys,”
then that regulation is similarly content-based. Ward,
491 U.S. at 791.
In this case, the Village’s restriction on painted
wall signs “is wholly indifferent to any specific message
or viewpoint,” Weinberg, 210 F.3d at 1037; it applies to
all signs, regardless of their message or content. The
first step to understanding this is to recognize that the
Village’s Municipal Code broadly defines a “sign” as:
Any object, device, display or structure . . . that is
used to advertise, identify, display, direct or attract
attention to an object, person, institution, organization, business, product, service, event, or location by any means including words, letters, figures,
designs, symbols, fixtures, colors, or illumination
whether affixed to a building or separate from any
building.

22a
R. 40-6, Exh. E, Village Muni. Code § 15.220. This expansive definition does not on its face refer to the content of speech, either by singling out a viewpoint or a
particular topic of speech. Next, the Village regulates
signs in Article 9 of the Municipal Code (this Opinion
has been calling Article 9 the “Sign Ordinance” for convenience). After setting forth the Sign Ordinance’s general purpose, see Sign Ord. § 9.010, the Ordinance then
bans certain types of signs, again without reference to
the viewpoint or topic of the sign’s message. Entitled
“Prohibited Signs and Sign Characteristics,” Section
9.020 sets out 21 categories of banned signs, including
“any sign painted directly on a wall, roof, or fence.”
§ 9.020(P) (as amended).5 There is no exception in Section 9.020: all painted wall signs are banned, regardless of a sign’s content.
It is true that the next section of the Sign Ordinance, § 9.030, exempts certain types of signs from being subject to the Village’s permit application and fee
requirements—and the exemptions do, in some instances, refer to the content of the signs. To back-up
for a moment, the Sign Ordinance does generally require that persons who want to display a sign apply
for a permit to do so. Sign Ord. § 9.080(A). Unless the
Sign Ordinance “expressly” says otherwise, “all signs
require a permit.” § 9.080. The permit-application process
includes a “plat of survey” and a permit fee. § 9.080(A),
(B). A copy of the application, which apparently is used
5

In July 2015, the Village amended this section to remove a
previous exception for certain business districts in the Village. R.
36-2, Exh. B, Am. Sign Ord.

23a
for a wide variety of Village-required permits and thus
is not specific to signs, is attached to this Opinion, as
is the schedule of user fees. There is nothing more specific in the Sign Ordinance about the requirements for
issuance of a permit, but in the same section, the Sign
Ordinance does require that signs (a) conform with the
National Electrical Code (if the sign has electrical wiring and connections); (b) be designed and constructed
to withstand wind pressure of at least 40 pounds per
square foot and to receive “dead loads” as required in
the Village’s building code; and (c) for signs that extend
over, or could fall on, a public right-of-way, the applicant must agree to indemnify the Village and to obtain
certain insurance coverage. § 9.080(C), (D), (E). So the
Sign Ordinance does require a permit-application process for signs, absent an express exemption.
Returning to Section 9.030, that particular section
does exempt certain types of signs from the permitapplication process. And, as noted earlier, some of the
exemptions do refer to the content of the signs. E.g.,
§ 9.030(B) (public-safety signs), § 9.030(E) (temporary
signs at a residence commemorating a “personal”
event, such as a birthday), § 9.030(G) (“Noncommercial
flags” of a government), § 9.030(I) (“Political signs and
noncommercial signs,” within certain size limits). But
that does not mean that the ban on painted wall
signs—contained in § 9.020 of the Sign Ordinance—is
content-based. The ban applies to all signs, even those
that are not subject to the permit-application requirement. Nothing in the text of § 9.020 suggests that the
prohibited signs in that section are anything but

24a
completely banned, even if the sign is one of the types
exempted in § 9.030. In other words, the only thing
that § 9.030 does in categorizing certain types of signs
is to exempt those signs from the permit-application
process. For example, if someone wanted to display a
political or noncommercial sign, the sign would be exempt from the permit-application process (assuming it
met the other requirements detailed in § 9.030), but
§ 9.020 would still ban the sign from being painted directly on a wall. Nor is there anything in the text of
either § 9.030 or § 9.080 that purports to override the
complete ban of § 9.020. So the painted-wall ban does
not single out a certain message for different treatment, nor does it require consideration of the content
of the speech in order to apply it.6 There is also no
6

In resisting the content-neutral text of the Sign Ordinance’s ban against painted wall signs, Leibundguth points to a
Staff Report authored by the Village’s Planning Manager, Stanley
Popovich. According to Leibundguth, the report shows that flags
and murals are allowed to be painted directly on walls. Pl.’s Br.
at 3; R. 47, Pl.’s Reply Br. at 6. The report was submitted as a
recommendation on the proposed 2015 amendments to the Sign
Ordinance. See R. 36-2, Exh. B, 2015 Staff Report. In the report,
Popovich does say that purely “decorative” flags and murals are
not subject to the ban. 2015 Staff Report at 3 (“There are instances of flags and murals painted on buildings and these are
permitted by the code on the basis that they are decorative, and
do not convey constitutionally protected commercial or non-commercial speech.”). But the report simply states that conclusion
without any discussion of the Sign Ordinance’s text. See id. As
discussed above, the actual text of the pertinent provisions of the
Sign Ordinance contains no exception to the ban on painted wall
signs. Indeed, the Village concedes that flags and murals that
meet the definition of a “sign” are subject to the painted wall sign
restriction. R. 45, Def.’s Reply and Resp. Br. at 1. In light of municipal code’s broad definition of a “sign,” see R. 40-6, Exh. E,

25a
evidence to suggest that the Village adopted this restriction because of disagreement with the messages
conveyed in painted wall signs. Accordingly, because
the Village’s restriction on painted wall signs applies
to all signs, regardless of their content, the restriction
is content-neutral.
The Court must next consider whether the Ordinance’s restriction on painted wall signs is narrowly
tailored to achieve a significant government interest.
It is this prong that the parties most contentiously dispute. The Village generally asserts that two governmental interests underlie the restrictions in its Sign
Ordinance: traffic safety and aesthetics. See Def.’s Br.
at 8-9. The Village then specifies, in a footnote, that
“[f ]or purposes of Section 9.020.P” the relevant governmental interest is “solely . . . aesthetics.” Id. at 8 n.4.7
Based on that concession, the Court will focus its
analysis on aesthetics only. It is well settled that a
town’s interest in aesthetics is a significant governmental interest. Members of the City Council of Los
Angeles v. Taxpayers for Vincent, 466 U.S. 789, 805-06
Village Muni. Code § 15.220, it is difficult to conceive of a flag or
mural that would not be considered a “sign,” despite the note in
the Staff Report.
7
The Village’s concession on this point is oddly worded; it
says that the “focus of this pleading” (its brief ) is “solely on aesthetics.” Def.’s Br. at 8 n.4. Regardless of what is meant by that,
even if the Village did want to rely on traffic safety as a purported
justification for the painted wall sign ban, the Village develops no
argument and points to no record evidence that painted wall signs
pose some special traffic-safety problem that differs from nonpainted signs.

26a
(1984) (“it is well settled that the state may legitimately exercise its police powers to advance esthetic
values . . . [and] municipalities have a weighty, essentially esthetic interest in proscribing intrusive and unpleasant formats for expression.”); see also Metromedia,
Inc. v. City of San Diego, 453 U.S. 490, 507-08 (1981)
(describing both “traffic safety” and “the appearance of
the city” as “substantial government goals”). So the
significance of the government interest is satisfied—
the only question is whether the Village’s ban on
painted wall signs is narrowly tailored to further that
aesthetic interest.
“A regulation is narrowly tailored if it ‘promotes a
substantial government interest that would be achieved
less effectively absent the regulation.’ ” Weinberg, 310
F.3d at 1040 (quoting Ward, 491 U.S. at 799). “[A]n ordinance need not be the least restrictive method for
achieving the government’s goal” in order to satisfy
the narrowly tailored prong. Id. Although the Village
cannot “blindly invoke” its concerns without more,
Weinberg, 310 F.3d at 1038, the burden to put forth
evidence supporting a content-neutral speech restriction
of this kind is “not overwhelming,” DiMa Corp., 185
F.3d at 829. For example, “[t]he First Amendment does
not require a city, before enacting such an ordinance,
to conduct new studies or produce evidence independent of that already generated by other cities, so long as
whatever evidence the city relies upon is reasonably
believed to be relevant to the problem that the city addresses.” Id. (internal quotation marks omitted). See

27a
also City of Watseka v. Illinois Public Action Council,
796 F.2d 1547, 1554 (7th Cir. 1986).
Leibundguth’s primary challenge is to the sufficiency of the evidence offered by the Village to justify
its need for its restriction on painted wall signs. The
Village does “ha[v]e the burden of showing there is evidence supporting its proffered justification,” which in
this case is aesthetics. Weinberg, 310 F.3d at 1038. And
although the evidence does not need to be “overwhelming,” the Village does need to show that it did more
than “blindly invoke” aesthetic concerns to support its
restriction on painted wall signs. Id. But in this case,
the Village has satisfied its burden. Before the Village
implemented its Sign Ordinance, it took hundreds of
photographs of signs both around the village, as well
as in nearby towns. R. 37-4, Exh. 1D at 160-3488. The
Village documented the various sign styles and structures in use by the community and on several occasions made note of aesthetic preferences. See, e.g., id.
at 326. More to the point, in a Staff Report prepared
for the Village’s Plan Commission, the Village specifically discussed the aesthetic problems associated with
painted wall signs. See R. 36-3, Exh. C, 2015 Staff Report. The Report explains that painted wall signs “present numerous issues, including permanence, on-going
maintenance and water damage to the underlying
structure;”9 that the typical removal processes for
8

The page numbers associated with this exhibit refer to the
pagination in the PDF.
9
The Report explains in detail why water damage is a special problem with paint on bricks: the paint traps moisture on the

28a
painted wall signs “are very caustic and can cause significant damage to the brick,” “[i]n many cases” leaving
a “ghost sign” on the wall; and that “[t]ired, faded,
chipped wall signs painted directly onto wood or masonry are perceived by many . . . as presenting a negative face to the commercial vitality of the community.”
Id. at 3-5. The Report also sets forth a photographic
example of what the “ghost” sign problem looks like
and what the water damage problem looks like (given
the Village’s ban, the exemplar photos are not actually
from signs in the Village). Id. at 4, 5. Although this Report did not come out until the Sign Ordinance was
amended in 2012, it nevertheless supports the Village’s
conclusion that painted wall signs pose specific aesthetic problems that justify the ban in § 9.020(P). On
top of all this, the Village also offers photos of Leibundguth’s railway-facing, painted wall sign, and those photos do show some of the fading and chipping aesthetic
problems discussed by the Staff Report. R. 36-4, Exh.
D at 7-9 (photos taken on July 22, 2015). All of this evidence together shows that the Village did not blindly
invoke its aesthetic concerns, but rather that it carefully documented and considered the current appearance of signs around the community and the impact
different types of signs, including painted wall signs,
have on the town’s general appearance. The Village has
provided sufficient evidence to justify its need for a restriction on painted wall signs.

brick’s surface, and when the water freezes and expands, the ice
shears the face of the brick. 2015 Staff Report at 4.

29a
The Village’s painted wall sign restriction is also
narrowly tailored to serve the Village’s interest in
aesthetics. The Village spent more than a year in deliberation and dialogue with Village residents and
businesses regarding the Sign Ordinance, as reflected
in the Village’s meeting minutes. See, e.g., DSOF ¶¶ 1314; R. 37-1, Exh. 1A at 49-104.10 Recognizing the problems created by painted wall signs, the Village determined that the best way to eliminate the harm caused
by painted wall signs was to ban them. This was probably the only effective way to address the aesthetics
problem posed by painted wall signs. See Taxpayers for
Vincent, 466 U.S. at 808 (“By banning these signs, the
City did no more than eliminate the exact source of
the evil it sought to remedy. . . . It is not speculative to
recognize that [posted signs] by their very nature,
wherever located and however constructed, can be perceived as an esthetic harm.” (internal quotation marks
and citation omitted)). In arguing to the contrary, Leibundguth does not, except for one immaterial exception, actually attempt to explain how the Village could
adopt some other, narrower restriction and still serve
its concern over aesthetics. Pl.’s Br. at 4-5.11 Really,
10

The page numbers associated with this exhibit refer to the
pagination in the PDF.
11
The immaterial exception is in response to the Village’s
unpersuasive argument that striking down the painted wall sign
ban would prevent the Village from banning spray-painted signs.
Pl.’s Br. at 3-4. Of course it would be narrower to ban only spraypainted signs, but luckily for the Village, the Village more broadly
argues (persuasively) that the aesthetic problems posed by
painted wall signs are not limited to spray paint. See 2015 Staff
Report at 3-5.

30a
Leibundguth just argues that the Village’s concerns
are not genuine concerns because (1) painted murals
are allowed, Pl.’s Br. at 5, and (2) the Village does not
ban painting on brick walls, it just bans painted wall
signs, id. at 4. But on the first point, this Opinion earlier explained why there is no exemption for murals.
Supra at 14-15, 15 n.6. And on the second point—
which, again, is not really an argument on narrow
tailoring, so much as it is an argument against the
genuineness of the aesthetic concern—the Village reasonably could conclude that a sign, which is by definition a display that attracts attention (and indeed is
designed to attract attention), poses a more serious
aesthetic problem that [sic] just a painted wall. The
Village’s restriction on painted wall signs is narrowly
tailored to advance its interest in aesthetics.
Moving on to the final element of the time-placeand-manner test, the parties do not dispute whether
the Village’s ban on painted wall signs leaves open
ample alternative channels of communication, and for
good reason. The Village’s restriction on painted wall
signs prohibits just painted wall signs; it does not prohibit other types of wall signs. In fact, the Sign Ordinance expressly permits residents and businesses to
put up wall signs if they wish to do so, they just cannot
directly paint the sign on the wall. Sign Ord. § 9.050(C).
The Ordinance also allows businesses to use a variety
of other types of signs, such as window signs, awning
signs, and under-canopy signs. Id. § 9.050(F)-(H). The
Village has left open ample alternative channels
through which commercial entities, like Leibundguth,

31a
can advertise their businesses. This element is satisfied.
Because the Village has satisfied its burden—at
least as to its interest in aesthetics—under the First
Amendment, the Village’s ban on painted wall signs is
constitutional. The Village’s motion for summary judgment is granted as to Leibundguth’s claim that the ban
on painted wall signs violates the First Amendment.12
B. Restriction on Wall Signs Facing a
Roadway or Drivable Right-of-Way
Leibundguth’s next challenge is to the Ordinance’s
requirement that wall signs face a roadway or drivable
right-of-way. See Sign Ord. § 9.050(C)(1). When originally adopted, this requirement precluded those lots
adjacent to the Metra railroad (like Leibundguth’s)
12

The Village suggests that in the event this Court determines that the Ordinance’s restriction on painted wall signs is
valid, the remainder of Leibundguth’s complaint becomes moot
because Leibundguth—after removing its painted wall signs—
will only have one remaining sign, which meets the Ordinance’s
restrictions. Def.’s Br. at 14. This, however, does not moot the remainder of the complaint, because Leibundguth still currently
has all three signs on its building. Until Leibundguth removes the
painted wall signs, the company remains in violation of the restrictions in § 9.020(P) as well as the restrictions in § 9.050.
What’s more, Leibundguth is entitled to appeal this Court’s holding that the ban on painted wall signs is valid, so even if Leibundguth removes the painted wall signs, the company can present a
live, non-moot dispute because the company would want to paint
the signs back onto the walls (and, in any event, perhaps Leibundguth will win a stay of the decision pending appeal). The remainder of the complaint is not moot.

32a
from displaying wall signs that faced the railroad but
did not face a roadway or drivable right-of-way. After
Leibundguth filed suit, however, the Village amended
§ 9.050(C). In July 2015, the Village added a provision
allowing “lots with frontage along the BNSF railroad
right-of-way”—like Leibundguth’s—to display “one additional wall sign” facing the railroad, provided that
the sign does “not exceed 1.5 square feet per linear foot
of tenant frontage along the BNSF railroad right-ofway.” Am. Sign Ord. § 9.050(C)(5). Due to this amendment, the Village argues, Leibundguth’s claim here—
that the Sign Ordinance’s ban on signs facing the
Metra violates the First Amendment—is moot. Def.’s
Br. at 15.
The Village is correct. “[A] case is moot when the
issues presented are no longer ‘live’ or the parties lack
a legally cognizable interest in the outcome.” Powell v.
McCormack, 395 U.S. 486, 496 (1969). For claims seeking only prospective relief, the repeal of a challenged
ordinance ordinarily renders that case moot “unless
there is evidence creating a reasonable expectation
that the City will reenact the ordinance or one substantially similar.” Fed’n of Adver. Indus. Representatives, Inc. v. City of Chicago, 326 F.3d 924, 930 (7th Cir.
2003) (citing Rembert v. Sheahan, 62 F.3d 937, 940 (7th
Cir. 1995), Thomas v. Fiedler, 884 F.2d 990, 995 (7th
Cir. 1989)). See also Zessar v. Keith, 536 F.3d 788, 793
(7th Cir. 2008) (“[A]ny dispute over the constitutionality of a statute becomes moot if a new statute is enacted in its place during the pendency of the litigation,
and the plaintiff seeks only prospective relief.”). The

33a
same holds true for when a municipality amends a
statute, at least so long as the amended statute
“clearly rectifies the statute’s alleged defects.” Rembert
v. Sheahan, 62 F.3d 937, 940-41 (7th Cir. 1995).
In this case, the Village’s amended provision,
§ 9.050(C)(5), rectified the Sign Ordinance’s alleged defect on the railroad-facing ban. The Ordinance no
longer bans wall signs facing only the Metra railway.
Now, lots with railroad frontage are allowed to display
a wall sign facing the railroad even if that sign does
not also face a drivable right-of-way. Am. Sign Ord.
§ 9.050(C)(5). Thus, Leibundguth is no longer precluded from displaying a wall sign that faces only the
Metra tracks, as he complains. There is also no evidence in the record to show that the Village is likely to
repeal its amended provision; in fact, Leibundguth
does not even argue that the Village is likely to reenact
its ban. And while the Village did amend the ordinance
to moot this claim after Leibundguth filed suit, courts
have held that the altering of an ordinance in response
to litigation “does not alone show the city’s intent to
later reenact the challenged ordinance.” Outdoor Media
Group, Inc. v. City of Beaumont, 506 F.3d 895, 901 (9th
Cir. 2007). See also Fed’n of Adver. Indus. Representatives, Inc., 326 F.3d at 929 (ruling that where a municipality appears to be voluntarily amending a statutory
provision in order to fashion an ordinance that passes
constitutional scrutiny, it is proper to presume that
the municipality does not intend to reenact the same
or a substantially similar unconstitutional provision).
Thus, without more, there is no reasonable basis to

34a
believe that the Village will reenact its ban on wall
signs facing the Metra railway. Leibundguth’s claim is
moot as to the declaratory and injunctive relief Leibundguth requests in its amended complaint. Id. (“If
the plaintiff ’s only claims seek to require government
officials to cease allegedly wrongful conduct, and those
officials offer to cease that conduct, then the claims
should be dismissed as moot, absent some evidence
that the offer is disingenuous.”). To the extent Leibundguth wishes to challenge the amended section of the
Ordinance and to again request declaratory and injunctive relief on the revised Ordinance, Leibundguth
must amend its complaint to do so (though there does
not seem to be a practical reason to do so, at least not
as to the revised Ordinance’s authorization of a railroad-facing sign, as that is what Leibundguth wanted).
It is true that Leibundguth did not seek just declaratory and injunctive relief in its amended complaint. Leibundguth also sought one dollar in nominal
damages in connection with “the violation of [its] constitutional rights,” which presumably includes a violation resulting from the Village’s ban on wall signs
facing the Metra. See Am. Compl. ¶ D. A plaintiff who
has been deprived of a constitutional right is entitled
to nominal damages, as Leibundguth claims, even absent actual damages. Hessel v. O’Hearn, 977 F.2d 299,
302 (7th Cir. 1992). The problem for Leibundguth, however, is that the Village never did commit a constitutional violation of Leibundguth’s rights because the
Village never enforced its short-lived ban on signs facing only the Metra. The ban, when in effect, could have

35a
impacted only Leibundguth’s painted wall sign on the
back of its building; the sign facing the Metra. But that
sign was in place before the ordinance was enacted, remained in place after the enactment, and still remains
in place today. Leibundguth was not required to change
it; Leibundguth was never precluded from speaking
through that sign; and importantly, Leibundguth was
never fined for having a non-conforming sign when the
ban was in effect. Rather, the Village agreed not to fine
Leibundguth during this case’s pendency. R. 10. So
long as the Village will not fine Leibundguth for having
a Metra-facing sign during the time the ban was in effect, Leibundguth’s request for nominal damages is
likewise moot. See Freedom from Religion Found., Inc.
v. City of Green Bay, 581 F. Supp. 2d 1019, 1029-33
(E.D. Wis. 2008). See also Carey v. Piphus, 435 U.S. 247,
266 (1978) (explaining that nominal damages are
available to “vindicate[ ] deprivations of certain ‘absolute’ rights that are not shown to have caused injury”).
Accordingly, the Court dismisses this claim as moot.
C.

Restriction on Total Sign Area and the
Number of Permitted Wall Signs

Leibundguth’s next challenge is to the ordinance’s
restriction on the total signage area allowed under
§ 9.050(A), and on the number of wall signs permitted
under § 9.050(C). Section 9.050(A) limits the maximum allowable signage area per lot to “1.5 square feet
per linear foot of tenant frontage” for buildings which
are set back 300 feet or less “from the abutting street
right-of-way,” and “2 square feet per linear foot of

36a
tenant frontage” for buildings set back more than 300
feet. See Sign. Ord. § 9.050(A). Section 9.050(C), which
applies just to wall signs, limits the number of wall
signs a “business or property owner” may display to
“one wall sign per tenant frontage along a public roadway or drivable right-of-way.” Id. § 9.050(C)(1). According to Leibundguth, these size and number restrictions
violate the First Amendment because they do not serve
even a rational government interest, are not narrowly
tailored, and are not the least extensive means necessary to achieve the Village’s interests. Am. Compl.
¶¶ 91-94. Leibundguth challenges these restrictions
both on their face and as applied. The Court will address Leibundguth’s as applied challenge first, and its
facial overbreadth challenge second.
As a threshold matter, the Court must determine
the proper framework to use in analyzing these restrictions. As the Court explained in its April 2015 order addressing the Village’s motion to dismiss, the
appropriate level of scrutiny here is intermediate scrutiny. R. 29, April 2015 Order, at 17-19; see also Central
Hudson Gas & Elec. Corp. v. Public Svc. Comm’n, 447
U.S. 557, 562 (1980). Both parties agree that as far as
the restrictions in § 9.050 are concerned, they restrict
only commercial speech. The Village adopted this position in its motion to dismiss briefing, see R. 25 at 4
(explaining that “only three specific commercial sign
regulations prohibit [Leibundguth’s] commercial signs”);
and neither party disputes it now, see Def ’s Br. at 15;
Pl’s Br. at 5. Commercial speech, although of course
worthy of First Amendment protection, is entitled only

37a
to intermediate scrutiny, see Central Hudson, 447 U.S.
at 562; therefore, the restrictions in § 9.050 need only
satisfy the requirements of the Supreme Court’s Central Hudson test in order to be valid under the First
Amendment, see id.
Before addressing the merits of the Village’s restrictions under Central Hudson, however, it is worth
discussing a recent Supreme Court decision that was
issued after this Court’s opinion on the dismissal motion. In Reed v. Town of Gilbert, 135 S. Ct. 2218 (2015),
the Supreme Court held that a town’s sign code was
unconstitutionally content-based because it applied
different restrictions to signs depending on the sign’s
content. 135 S. Ct. at 2231-32. In Reed, a majority of
the Supreme Court explained that a speech regulation
would be considered content-based in one of two ways:
first, if the regulation, on its face, “applies to particular
speech because of the topic discussed or the idea or
message expressed,” then that regulation is contentbased. Id. at 2227. This is so “even if the regulation
does not discriminate among viewpoints within that
subject matter.” Id. at 2230. Second, if a regulation is
facially neutral, but cannot be “justified without reference to the content of the regulated speech” or was
“adopted by the government because of disagreement
with the message the speech conveys,” then that regulation is likewise content-based. Id. at 2227 (internal
quotations omitted). Applying these principles to the
town’s sign code in Reed, the Supreme Court concluded
that the distinctions the code drew between different
types of signs—for example, Ideological Signs, Political

38a
Signs, and Temporary Directional Signs—were content-based because they “depend[ed] entirely on the
communicative content of the sign,” id. at 2227, and
that because the code favored certain kinds of speech
(e.g., ideological signs) over other kinds of speech (e.g.,
temporary directional signs), its restrictions had to be
subject to strict scrutiny, id. at 2227-31.
Given how recently Reed was decided, its reach is
not yet clear. Although Reed broadly states that content-based restrictions must be subject to strict scrutiny, see id. at 2231, even if there is no viewpoint
discrimination and even if the speech regulation differentiates just as to particular topics, it remains to be
seen whether strict scrutiny applies to all contentbased distinctions. As pertinent here, the question
would be whether strict scrutiny applies to commercial-based distinctions like those at issue in § 9.050(A)
and (C). There are certain broad statements in Reed
that could be read that way, see id. at 2226 (“Contentbased laws [are] unconstitutional and may be justified
only if the government proves that they are narrowly
tailored to serve compelling state interests.”), but
other statements tug the other way, id. at 2232 (“Not
all distinctions are subject to strict scrutiny, only content-based ones are.”). Yet the concurring opinions
warn that the majority’s test for how to tell what is
content-based and what is not could result in commercial-speech regulation being deemed content-based.
See id. at 2235 (Breyer, J., concurring in judgment)
(“Nor can the majority avoid the application of strict
scrutiny to all sorts of justifiable . . . regulations by

39a
relying on this Court’s many subcategories of exceptions to the rule,” such as, “for example, . . . commercial
speech.”); id. at 2236 (Kagan, J., concurring in judgment) (“Says the majority: When laws single out specific subject matter, they are facially content based;
and when they are facially content based, they are automatically subject to strict scrutiny.”). But the majority never specifically addressed commercial speech in
Reed, which is not surprising, because the Supreme
Court did not need to address that issue: all of the restrictions at issue in Reed applied only to non-commercial
speech. What is important for this case is that, absent
an express overruling of Central Hudson, which most
certainly did not happen in Reed, lower courts must
consider Central Hudson and its progeny—which are
directly applicable to the commercial-based distinctions at issue in this case—binding. See Rodriguez de
Quijas v. Shearson/Am. Express, Inc., 490 U.S. 477, 484
(1989) (“If a precedent of th[e] [Supreme] Court has direct application in a case, yet appears to rest on reasons rejected in some other line of decisions, the Court
. . . should follow the case which directly controls,
leaving to th[e] [Supreme] Court the prerogative of
overruling its own decisions.”). Accordingly, notwithstanding any broad statements in Reed, the restrictions
in § 9.050(A) and (C) still only need to survive Central
Hudson’s intermediate scrutiny test.
With the proper test identified, it is time to apply
it. Central Hudson lays out a four-step analysis for determining whether restrictions on commercial speech
are valid under the First Amendment. Central Hudson,

40a
447 U.S. at 566. First, for commercial speech to even be
entitled to First Amendment protection, Central Hudson instructs that the speech must not itself comprise
unlawful activity (such as being fraudulent) and must
not be misleading. Id. If the speech satisfies this requirement, then the burden falls on the government to
show (1) that its asserted interest in regulating the
speech is “substantial,” (2) that its regulation “directly
advances” the government’s asserted interest, and (3)
that its regulation is “not more extensive than is necessary to serve that interest.” Id.
As to the threshold element, Leibundguth’s commercial speech—its signs advertising its business—
are entitled to First Amendment protection. Leibundguth’s signs concern a lawful activity: moving and
storage; and they are not false or misleading. Before
conducting discovery, the parties did not dispute
whether Leibundguth’s signs were truthful. Now, however, the Village asserts that one of Leibundguth’s
signs is false and misleading—the sign on the back of
Leibundguth’s building facing the Metra—because it
misidentifies the name of Leibundguth’s partner company, Wheaton World Wide Moving. See Def.’s Br. at 16.
The Village points out that the sign announces the
partner-company name as Wheaton World Wide Movers,
when in fact the company’s name is Wheaton World
Wide Moving. Id.; DSOF ¶ 25. Maybe a very discerning
grammarian would wonder whether the noun “Movers”
is equivalent to the gerund “Moving” (or is “Moving” a
present participle in the sign?) But to every other observer, this slight difference is not false or misleading,

41a
at least not in the commercial-speech sense. The requirement that commercial speech not be false or misleading is designed to protect consumers from deceit or
misinformation. See Central Hudson, 447 U.S. at 563.
The Village does not dispute that there is no registered
company under the name Wheaton World Wide Movers,
see Pl.’s Br. at 6, so Leibundguth is not trying to feed
on the reputation of another company. Nor has the Village otherwise submitted any evidence showing that
anyone is likely to be misled by this error, or tricked
into thinking Leibundguth has a relationship with one
moving company when in reality it has a relationship
with another. Because none of Leibundguth’s signs are
false or likely to deceive the public, they are all entitled
to First Amendment protection. Central Hudson, 447
U.S. at 563 (explaining that there is no constitutional
problem with banning “communication [that is] more
likely to deceive the public than inform it”); see also
In re R.M.J., 455 U.S. 191, 203 (1982) (explaining that
for Central Hudson purposes, “inherently misleading”
advertising “may be prohibited entirely”).
Moving on to the next element, the question is
whether the interests the Village advances—traffic
safety and aesthetics—are substantial. It is well settled that they are. See Metromedia, Inc., 453 U.S. at 508
(“Nor can there be substantial doubt that the twin
goals that the ordinance seeks to further—traffic
safety and the appearance of the city—are substantial
government goals.”); see also Taxpayers for Vincent,
466 U.S. at 806 (recognizing that towns may ban certain signs in furtherance of a “weighty” interest “in

42a
proscribing intrusive and unpleasant formats for expression”). To be sure, Leibundguth disputes whether
the record shows that those problems are actually
posed by the size and number of signs targeted by the
ordinance, and that dispute is discussed next, but this
part of Central Hudson is satisfied because aesthetics
and traffic safety qualify as substantial government interests.
The third element of Central Hudson asks whether
the Village’s restrictions in § 9.050(A) and (C) directly
advance the Village’s proffered interests in traffic
safety and aesthetics. A regulation infringing commercial speech “may not be sustained if it provides only
ineffective or remote support for the government’s purpose.” Edenfield v. Fane, 507 U.S. 761, 770 (1993) (quoting Central Hudson, 447 U.S. at 564). Put differently,
this burden “is not satisfied by mere speculation or
conjecture; rather the governmental body seeking to
sustain a restriction on commercial speech must
demonstrate that the harms it recites are real and that
its restriction will in fact alleviate them to a material
degree.” Id.; see also Greater New Orleans Broadcasting Ass’n, Inc. v. United States, 527 U.S. 173, 188 (1999).
It is here that the Village’s restrictions falter, although
only in part and not fatally. On the Village’s purported
interest in traffic safety, the Village has failed to provide sufficient evidence to prove that the signs of the
targeted size and number pose a traffic-safety problem,
or to show that the Village’s restrictions advance its
interest in traffic safety “in any direct [or] material
way.” Edenfield, 507 U.S. at 771. The Village has not

43a
provided any studies, police reports, or even anecdotal
stories to show that the traffic harms it recites are real.
See id. (concluding that the regulations at issue were
not narrowly tailored to serve the Board’s purported
interests where the Board presented no studies or anecdotal evidence to show that its interest was advanced by its restrictions, and where many states
failed to impose a similar restriction). Nor has it produced any evidence demonstrating that restricting the
size and number of commercial signs, but not other
signs (e.g., non-commercial flags, governmental signs,
or decorations temporarily displayed in connection
with a Village-sponsored event, see Sign Ord. § 9.030),
will alleviate this alleged harm to a material degree.
See City of Cincinnati v. Discovery Network, 507 U.S.
410, 424 (1993) (rejecting purported interest where
distinction between commercial and noncommercial
speech bore “no relationship whatsoever to the particular interests that the city has asserted”). Without any
evidence showing that the targeted signs pose a traffic
safety problem, the Village cannot show that its restrictions in § 9.050 directly advance that interest. See
Pearson v. Edgar, 153 F.3d 397, 402 (7th Cir. 1998).
It is true that the Village attaches treatises and
sign-industry publications to its brief, which it asserts
shows that sign regulations—like those at issue in
§ 9.050—directly impact traffic safety. See R. 38-13,
Exh. 14, Treatises. But the real problem with the Village’s presentation is that it fails to develop any actual
argument based on these treatises or to explain how
these treatises support its contention that traffic

44a
safety is a real problem for the Village. In one sentence—and one sentence only—the Village proffers
that these treatises show that “limiting the size and
number of signs can enhance traffic safety and aesthetics,” Def.’s Br. at 17 (emphasis added), but the fact that
such restrictions can improve traffic safety does not
show that the traffic safety harms the Village recites
are real or that the Village’s restrictions in § 9.050 operate to alleviate those harms to a material degree.
Without a developed argument, actually analyzing the
underlying treatises and publications, the Court cannot accept “speculation or conjecture” as proof that the
Ordinance’s restrictions advance the Village’s interest
in traffic safety. Edenfield, 507 U.S. at 770-71. Accordingly, these treatises do not save the Village’s traffic
safety interest.
The Village also cites to several sign codes from
surrounding towns, suggesting that because those
towns imposed size and number restrictions in the
name of traffic safety, the Village’s interest in traffic
safety must likewise be real. Def.’s Reply and Resp. Br.
at 9. But the Village’s argument again falls short. In
order for these other sign codes to provide the support
the Village needs here, those codes must do more than
simply cite traffic safety as a governmental interest
(which is exactly what the Village has done here), they
must provide some sort of evidence showing that traffic
safety is advanced by restrictions like the ones the Village has imposed here. To be sure, this evidence need
not be extensive; it can be in the form of studies performed by those other locales or even by anecdotes

45a
from those towns. See Lorillard Tobacco v. Reilly, 533
U.S. 525, 555 (2001) (noting that “litigants [can] justify
speech restrictions by reference to studies and anecdotes pertaining to different locales altogether, or even,
. . . [by] relying on history, consensus, and ‘simple common sense’ ”). But simply noting that other locales cite
to traffic safety in their sign codes is insufficient. The
Village has failed to point the Court to anywhere in
those sign codes showing the existence of a relationship between traffic safety and regulations limiting the
size and number of signs. And again, absent some sort
of evidence showing that the Village’s restrictions in
§ 9.050(A) and (C) alleviate to at least some degree
the Village’s interest in traffic safety, the Village’s restrictions in § 9.050(A) and (C) cannot be said to directly advance that interest.
The Village’s interest in aesthetics, however, saves
the Sign Ordinance. Unlike with its interest in traffic
safety, the Village does have a sufficient basis for believing that its restrictions in § 9.050(A) and (C) help
“enhance the physical appearance of the Village”—one
of the alleged goals of the Village’s Sign Ordinance.
Sign Ord. § 9.010(A)(3). As noted earlier in the Opinion, before enacting the Ordinance, the Village took
hundreds of pictures of commercial signs around the
community, spoke with several village members regarding the different signage currently in use by town
residents and businesses, and even took pictures of
signs in surrounding communities for comparison purposes. R. 37-4, Exh. 1D at 160-348; DSOF ¶¶ 13-14. Because the Village spent time studying the appearance

46a
of signs in its town (as well as in other towns), the Village knew how the town’s commercial signs looked and
how it wanted to change those signs to improve the
town’s overall aesthetic appeal. This shows that the
aesthetic harms the Village cites are not just mere conjecture, but rather that they are real harms that can
be alleviated by placing restrictions on the size and
number of signs that may be placed on buildings in the
village. See Metromedia, 453 U.S. at 510 (“It is not speculative to recognize that billboards by their very nature, wherever located and however constructed, can
be perceived as an ‘esthetic harm.’ ”); Taxpayers for
Vincent, 466 U.S. at 807 (concluding that a complete
ban on the posting of signs on public property directly
advanced a town’s interest in preventing visual clutter); see also View Outdoor Advertising, LLC v. Town
of Schererville Bd. of Zoning Appeals, 86 F. Supp. 3d
891, 895 (N.D. Ind. 2015) (finding that a ban on commercial billboards directly advanced a town’s interest
in aesthetics). Accordingly, the Village’s restrictions in
§ 9.050(A) and (C) directly advance its stated interest
in improving the town’s aesthetics.
The Village’s restrictions in § 9.050(A) and (C) are
also narrowly tailored to serve the Village’s interest in
aesthetics. This last part of the Central Hudson analysis asks whether the Village’s restrictions are no more
extensive than necessary to further the Village’s purported interest. To satisfy this prong, the Village need
not show that its restrictions are “the least restrictive
means conceivable,” or that they are a “perfect” fit.
Greater New Orleans Broadcasting Ass’n, Inc. v. United

47a
States, 527 U.S. 173, 188 (1999). Rather, all that the
Village must show is that there is a “fit between the . . .
ends and the means [that it] chose[ ] to accomplish
those ends.” Am. Blast Fax, Inc., 323 F.3d at 658-59
(citing Fla. Bar v. Went For It, Inc., 515 U.S. 618, 632
(1995). The Village has done this. Municipalities, like
the Village, are generally given “considerable leeway
. . . in determining the appropriate means to further a
legitimate governmental interest, even when enactments incidentally limit commercial speech.” SouthSuburban Housing Ctr. v. Greater South Suburban Bd.
of Realtors, 935 F.2d 868, 897 (7th Cir. 1991) (citing Bd.
of Trustees of State Univ. of New York v. Fox, 492 U.S.
469, 478-79)). In this case, the Village chose to limit the
total sign area, § 9.050(A), and the number of commercial wall signs a building may display, § 9.050(C). The
Village did not go so far as to completely ban wall signs
(except painted ones) or commercial signs altogether;
nor is there evidence in the record to suggest that the
Village’s restrictions in § 9.050 are likely to have a detrimental impact on a business’ ability to effectively advertise to consumers. Id. In fact, the Village’s Sign
Ordinance still permits a business to advertise in a variety of ways, including not only through wall signs,
but also through window signs, awning signs, vehicle
signs, and sandwich board signs.13 See generally Sign
13

Leibundguth points to the Ordinance’s allowance of other
signs in unlimited numbers to suggest that the Ordinance’s restrictions in § 9.050 are not narrowly tailored. See Pl.’s Br. at 12.
But this point is not persuasive. As the Court noted above, this
last element of the Central Hudson analysis merely requires a
reasonable fit between the Village’s goal—improving town

48a
Ord. § 9.050. The Village’s decision to limit the total
sign area and number of wall signs a commercial business may display is thus narrowly tailored to serve the
Village’s interest in enhancing the town’s overall appearance. A reasonable fit exists between the Village’s
ends—improving town aesthetics—and the means the
Village chose to accomplish those ends—restricting the
size and number of commercial signs.
Leibundguth argues that the Village’s interest in
community aesthetics cannot be considered narrowly
tailored because the Village was willing to exempt one
company, Art Van Furniture, from having to abide by
§ 9.050’s restrictions. Pl.’s Br. at 8. According to Leibundguth, the Village’s willingness to make such an
exception demonstrates that the Village’s restrictions
in § 9.050(A) and (C) are impermissibly underinclusive. Id. It is true that a restriction on speech can be
underinclusive, and therefore, invalid, when it has exceptions that undermine and counteract the interest
the town claims its restrictions further. See Vanguard
Outdoor, LLC v. City of Los Angeles, 648 F.3d 737, 742
(9th Cir. 2011); see also View Outdoor Advertising, LLC,
86 F. Supp. 3d at 896. But exceptions should also not
be “viewed in isolation” or “parsed too finely.” Vanguard
aesthetics—and its chosen means—reducing total signage area
and the number of wall signs permitted. It does not require that
the restrictions implemented by the Village be a perfect fit or the
least restrictive means possible. See Members of the City Council
of Los Angeles, 466 U.S. at 815-16. It is sufficient that the Village’s
aesthetic goals are directly advanced by its restrictions in § 9.050
and that those restrictions are an “effective approach” to solving
the problem before the Village. Metromedia, 453 U.S. at 508.

49a
Outdoor, LLC, 648 F.3d at 742. In this case, the Village’s
decision to grant one company a variance to § 9.050’s
restrictions does not undermine the Village’s overall
interest in advancing its community appearance. The
Village’s restrictions in § 9.050(A) and (C) still effectively advance the Village’s interest in aesthetics.
Because the Ordinance’s restrictions in § 9.050(A)
and (C) satisfy the requirements outlined in Central
Hudson, the restrictions do not run afoul of the First
Amendment. Accordingly, Leibundguth’s as applied
challenge fails. The Village’s restrictions in § 9.050(A)
and (C) may stand.
All that remains then is Leibundguth’s final argument: its facial challenge. Leibundguth frames its
challenge as an overbreadth attack. Pl.’s Br. at 16. It
contends that even if the Village’s restrictions in
§ 9.050(A) and (C) “might be constitutionally applied
to Leibundguth” (that is, might pass muster as restrictions on commercial speech), the restrictions may
nonetheless “conceivably be applied unconstitutionally
to others,” (that is, to noncommercial speakers) and
thus, must be deemed “invalid” in “all [their] applications.” Id. In making this argument, Leibundguth relies not only on § 9.050, but also on § 9.030 of the
Village’s Ordinance. Section 9.030 is what Leibundguth identifies as the “noncommercial” counterpart to
§ 9.050’s restrictions on commercial signs. R. 47, Pl.’s
Reply Br. at 17. As discussed previously, Section 9.030
exempts certain signs, depending on their content,
from needing to obtain a permit and then subjects
those exempted signs to a variety of size and number

50a
restrictions, which are different than the size and
number restrictions found in § 9.050 for commercial
signs. Sign Ord. § 9.030. For example, it exempts noncommercial and political signs from needing to obtain
a permit, but then restricts those signs to a “maximum
area of 12 square feet per lot” and requires that they
not be in “the public right-of-way.” Id. § 9.030(I). It likewise exempts governmental signs and noncommercial
flags, but then does not impose any size or number restrictions on those signs. Id. § 9.030(A) and (G). Leibundguth contends that the content-based distinctions
the Ordinance draws between different noncommercial signs in § 9.030, requires that all of the Ordinance’s size and number restrictions (in both § 9.030
and § 9.050) be subject to strict scrutiny—a level of
scrutiny, Leibundguth argues, the Village cannot meet.
Pl.’s Br. at 18-20.
Leibundguth, however, is not entitled to invoke the
overbreadth doctrine in this way, because the parties
agree that § 9.050 applies only to commercial speech.
The overbreadth doctrine is designed to give a litigant,
who has been injured under one provision of an ordinance, standing to bring a facial challenge to vindicate
the constitutional rights of another litigant not currently before the court who may also have been injured
under that same provision. Alexander v. United States,
509 U.S. 544, 555 (1993); see also CAMP Legal Defense
Fund, Inc. v. City of Atlanta, 451 F.3d 1257, 1273-74
(11th Cir. 2006). In the case of a commercial litigant
then, like Leibundguth, the First Amendment’s overbreadth doctrine can be used by that commercial

51a
litigant to challenge an ordinance that might be constitutionally applied to it, but unconstitutionally applied to a noncommercial litigant. Bd. of Trustees of
State Univ. of New York v. Fox, 492 U.S. 469, 481 (1989).
The problem for Leibundguth, of course, is that because
§ 9.050 does not apply to noncommercial speakers,
there is no overbreadth challenge to be had. A noncommercial litigant will never be subject to § 9.050’s
requirements, because those requirements apply only
to commercial speakers; therefore, there are no nonparty rights to assert here. And although Leibundguth
can point to § 9.030 to inform whether § 9.050—the
section that applies to Leibundguth—is content-neutral,
Leibundguth cannot challenge under the overbreadth
doctrine an entirely different section of the Ordinance—
like § 9.030—which does not apply to it. See CAMP
Legal Defense Fund, Inc., 451 F.3d at 1273-74 (“The
overbreadth doctrine allows CAMP to mount a facial
challenge to provisions of the Festivals Ordinance that
harm its ability to hold a festival . . . [But] [n]othing
in the overbreadth doctrine allows CAMP to challenge
provisions wholly unrelated to its activities.”); see also
Brazos Valley Coal. for Life v. City of Bryan, 421 F.3d
314 (5th Cir. 2005); Lamar Adver. of Pa., LLC v. Town
of Orchard Park, 356 F.3d 365 (2d Cir. 2004). Accordingly, Leibundguth’s facial challenge also fails.14
14

If Leibundguth’s facial challenge survived, and strict scrutiny applied to both § 9.030 and § 9.050, then the Village’s restrictions would in all likelihood fail to survive that level of
scrutiny. To survive strict scrutiny, the Village would need to
show that its restrictions in § 9.050, as well as its restrictions in
§ 9.030, further “a compelling state interest and [are] narrowly

52a
IV.

Conclusion

The Court holds that the Village’s restriction on
painted wall signs in § 9.020(P) is a valid contentneutral time, place, and manner restriction. This restriction is valid under the First Amendment and may
remain in place. The Village’s restrictions in § 9.050(A)
and (C) may likewise remain in place, as those restrictions, which apply only to commercial speech, satisfy the Central Hudson test. Accordingly, the Court
grants the Village’s motion for summary judgment,
and denies Leibundguth’s.
As mentioned earlier, the Village has agreed to
not impose any fines against Leibundguth during the
case’s pendency. Because this Opinion brings the case
to a close in the district court, it is conceivable that the
Village now will seek to start the meter running in
fines, even if Plaintiffs plan to appeal. But to give both
drawn to achieve that end.” Arkansas Writers’ Project, Inc. v.
Ragland, 481 U.S. 221, 231 (1987); see also Reed, 135 S. Ct. at
2231; Billings v. Madison Metro. Sch. Dist., 259 F.3d 807, 815 (7th
Cir. 2001). The Village—at least on this record—very likely has
failed to make that showing. For example, it is questionable
whether the Village’s interests in traffic safety and aesthetics are
sufficiently compelling to satisfy strict scrutiny. See Neighborhood Enterprises, Inc. v. City of St. Louis, 644 F.3d 728, 738 (8th
Cir. 2011), cert. denied, 132 S. Ct. 1543 (2012) (ruling that “a municipality’s asserted interests in traffic safety and aesthetics,
while significant, have never been held compelling”); but see
Solantic, LLC v. City of Neptune Beach, 410 F.3d 1250, 1267 (11th
Cir. 2005) (holding that while the city’s “asserted interests in aesthetics and traffic safety” are not “compelling” in this instance,
“[w]e do not foreclose the possibility that [they] may in some circumstances constitute a compelling government interest”).

53a
sides time to consider this Opinion and make deliberative decisions on whether to appeal and whether to
agree to a continued stay of the imposition of fines if
an appeal were to be filed (including a possible agreement by the parties to expedite (or at least move
promptly) appellate briefing in exchange for not imposing fines during the appeal’s pendency), the Court on
its own motion enters a temporary stay of judgment so
that the fines will not accumulate during the deliberative process. The temporary stay will expire on December 28, 2015, by which time hopefully the parties will
have entered into an agreement concerning the pace of
an appeal and the stay of fines during an appeal. If no
agreement is reached, then Plaintiffs must file a motion to extend the stay during the appeal by December
28, 2015. If a stay motion is filed, then the stay will
automatically be decided until after briefing and a decision on the stay motion.
ENTERED:
s/Edmond E. Chang
Honorable Edmond E. Chang
United States District Judge
DATE: December 14, 2015

54a
IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Robert Peterson, et al,
Plaintiff(s),
v.
Downers Grove,
The Village of,

Case No. 14 CV 9851
Judge Edmond E. Chang

Defendant(s).
JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):
⬜

in favor of plaintiff(s)
and against defendant(s)
in the amount of $
,
which ⬜ includes pre–judgment interest.
⬜ does not include pre–judgment
interest.

Post-judgment interest accrues on that amount at
the rate provided by law from the date of this judgment.
Plaintiff(s) shall recover costs from defendant(s).
☒

in favor of defendant(s) Defendant-Counterclaimant Village of Downers Grove and
against plaintiff(s) Plaintiff Leibundguth
Storage and Van Service, Inc.

55a
Defendant(s) shall recover costs from plaintiff(s).
⬜

other:

This action was (check one):
⬜ tried by a jury with Judge presiding, and the jury
has rendered a verdict.
⬜ tried by Judge without a jury and the above decision was reached.
☒ decided by Judge Edmond E. Chang on a motion
Rule 54(b) judgment entered on the federal-law claims
and counterclaim. Section 9.020(P) and Section 9.050(A)
and (C) are valid, and the federal claims of Plaintiff
Leibundguth Storage & Van Service, Inc. against those
sections are dismissed and judgment is entered in favor
of Defendant-Counterclaimant as to those sections. A
declaration is entered as to those sections’ validity. The
claim against former Section 9.050(C)(1) is dismissed
as moot.
Date:

1/7/2016

Thomas G. Bruton, Clerk of Court
Marsha E. Glenn, Deputy

56a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

FOR THE

)
)
)
)
) No. 14 C 09851
Plaintiffs,
)
v.
) Judge Edmond E. Chang
VILLAGE OF DOWNERS )
)
GROVE, ILLINOIS,
)
Defendant.
)
ROBERT PETERSON
and LEIBUNDGUTH
STORAGE & VAN
SERVICE, INC.,

MEMORANDUM OPINION AND ORDER
(Filed Jun. 29, 2016)
On December 14, 2015, the Court issued an order
granting the Village of Downers Grove, Illinois’s motion for summary judgment and denying Leibundguth
Storage & Van Service, Inc.’s cross motion for summary
judgment.1 R. 51, 12/14/15 Op.2 The Court formally entered a Rule 54(b) judgment in the Village’s favor on
all of Leibundguth’s claims on January 7, 2016. R. 52;
R. 53. Currently before the Court is Leibundguth’s motion to alter or amend judgment under Federal Rule of
Civil Procedure 59(e). R. 63, Mot. to Amend J.; R. 64,
1

This Court has subject matter jurisdiction over this case
under 28 U.S.C. § 1331.
2
Citations to the record are indicated as “R.” followed by the
docket number.

57a
Pl.’s Amend J. Br. For the reasons discussed below, Leibundguth’s motion is denied.
I.

Background

The factual background and procedural history of
this case are set forth in detail in the opinion granting
the Village’s motion for summary judgment. 12/14/15
Op. (For convenience, the Court will refer to that opinion as the “December 2015 Opinion.”) There is no need
to repeat all of those details here, so this Opinion sets
out only those facts relevant to deciding the current
motion.
In December 2014, Leibundguth sued the Village
of Downers Grove, alleging that several sections of the
Village’s Sign Ordinance violated the First Amendment. R. 1, Compl.; R. 10, Am. Compl. Leibundguth
challenged the provision prohibiting painted signs,
R. 10, Exh. A, Sign Ord. § 9.020(P), the provision prohibiting wall signs that face only the BNSF Railway
and not a public roadway or drivable right-of-way, id.
§ 9.050(C), and the provisions limiting the size and
number of wall signs that a business or property owner
may display along a public roadway or drivable rightof-way, id. § 9.050(A) (maximum sign area); id.
§ 9.050(C)(1) (number of wall signs). The Village answered Leibundguth’s complaint and filed a counterclaim. R. 12, Ans. and Countercl. In its counterclaim,
the Village asked the Court to declare the challenged
provisions of the Sign Ordinance constitutional, to order Leibundguth to bring all non-conforming signs into

58a
compliance with the Ordinance, and to award the Village fines if Leibundguth failed to bring its signs into
timely compliance. Id. at 32-36.
After discovery had closed, the Village filed a motion for summary judgment, in which it asked for
summary judgment in its favor on all counts in Leibundguth’s amended complaint. R. 35, Def.’s Mot.
Summ. J.; R. 36, Def.’s Summ. J. Br. at 20. The Village
did not ask for summary judgment on its counterclaim.
Leibundguth then filed its own cross motion for summary judgment, in which it too asked for summary
judgment in its favor on all counts in its complaint. R.
39, Pl.’s Mot. Summ. J. at 4-5. Again, the Village’s counterclaim was not discussed.
On December 14, 2015, the Court granted the
Village summary judgment on all counts in Leibundguth’s amended complaint. 12/14/15 Op. In analyzing
the various claims, the Court first held that the Sign
Ordinance’s prohibition on painted signs, R. 36, Exh. B,
Am. Sign Ord. § 9.020(P), was content-neutral and constituted a valid time, place or manner restriction.
12/14/15 Op. at 11-21.
Second, the Court concluded that Leibundguth’s
challenge to the Ordinance’s prohibition on wall signs
that face only the commuter railway, and not a public
roadway or drivable right-of-way, R. 36, Exh. A, Sign
Ord. § 9.050(C)(1), was moot because the Village had
amended that section of the Sign Ordinance. 12/14/15
Op. at 21-25. When originally enacted, the Sign Ordinance prohibited buildings next to the Metra railroad

59a
(like Leibundguth’s) from displaying a wall sign that
faced the railroad but not a public roadway or drivable
right-of-way. Sign Ord. § 9.050(C)(1). But in July 2015,
after Leibundguth filed suit, the Village amended
§ 9.050(C) to include a new provision allowing “lots
with frontage along the BNSF railroad” to display “one
additional wall sign” facing the railroad, provided the
sign did “not exceed 1.5 square feet per linear foot of
tenant frontage along the BNSF railroad right-of-way.”
R. 36, Exh. B, Am. Sign Ord. § 9.050(C)(5). Because Leibundguth was no longer precluded from displaying a
wall sign that faced only the railroad, which is all that
Leibundguth had challenged in its amended complaint, the Court decided that this claim was moot.
12/14/15 Op. at 22-24.
Third, the Court held that the Sign Ordinance’s
restrictions on the size and number of wall signs that
may be displayed on a given lot, R. 36, Exh. A, Sign
Ord. § 9.050(A) (size provision) and § 9.050(C)(1)
(number provision), applied only to commercial signs,
and therefore, were subject to intermediate scrutiny
under Cent. Hudson Gas & Elec. Corp. v. Pub. Serv.
Comm’n of N.Y., 447 U.S. 557 (1980). 12/14/15 Op. at
25-26. In reaching this conclusion, the Court noted
that the Village adopted this position—that these restrictions apply only to commercial speech—in its motion-to-dismiss briefing, id. at 26; R. 25, Def.’s Mot. to
Dismiss Reply Br. at 4, and that the parties did not dispute this point in their summary-judgment-briefing,
12/14/15 Op. at 26; Def.’s Summ. J. Br. at 15; R. 41,
Pl.’s Summ. J. Br. at 5. The Court also reviewed the

60a
Supreme Court’s recent decision in Reed v. Town of
Gilbert, 135 S. Ct. 2218 (2015), but concluded that because the Supreme Court did not specifically overrule
Central Hudson in Reed, Central Hudson still applied
to restrictions targeting commercial speech. 12/14/15
Op. at 27-29. Applying the test articulated in Central
Hudson, the Court found that the Ordinance’s restrictions on the size and number of wall signs that
may be displayed along a public roadway or drivable
right-of-way were narrowly tailored to advance the
Village’s interest in aesthetics and constituted valid
restrictions on commercial speech. Id. at 29-37.
Finally, the Court addressed Leibundguth’s facial
challenge to these same size and number restrictions
in § 9.050(A) and (C)(1). Relying on the overbreadth
doctrine, Leibundguth asserted that even if the restrictions could be constitutionally applied to it, the
restrictions could conceivably be applied unconstitutionally to others, and thus, had to be found invalid in
all applications. Pl.’s Summ. J. Br. at 16. The Court,
however, rejected Leibundguth’s overbreadth attack:because the parties agreed that the size and number restrictions in § 9.050(A) and (C) applied only to
commercial speech, a non-commercial litigant could
never be subject to these provisions, which meant
there was no overbreadth challenge to be had. 12/14/15
Op. at 38-40.
Having reached these conclusions, the Court
granted summary judgment in favor of the Village on
all counts of Leibundguth’s complaint. Id. at 40. The
December 2015 Opinion did not, however, specifically

61a
address the Village’s counterclaim, and in particular,
did not address the state-law issues raised in the
counterclaim, which neither party had briefed. At the
status hearing immediately following the Court’s issuance of its December 2015 Opinion, the Court entered
a Rule 54(b) judgment on Leibundguth’s claims, all of
which were federal claims, and on the federal portion
of the Village’s counterclaim (that is, the portion asking for a declaration of constitutionality). R. 52 (Jan. 7,
2016 Minute Entry). The Court then ordered the parties to file position papers addressing whether the
Court should relinquish supplemental jurisdiction
over the remaining issues in the Village’s counterclaim, all of which were based on state law. Id.
The parties filed their initial position papers on
January 21, 2016, R. 56; R. 57; they filed their responses a week later, R. 59; R. 60. Leibundguth urged
the Court to relinquish supplemental jurisdiction over
the state-law issues, R. 56; the Village urged the Court
to retain jurisdiction, R. 57. On the same day the parties submitted their initial position papers, January
21, Leibundguth also filed a motion under Federal Rule
of Civil Procedure 62, asking the Court to stay enforcement of the Sign Ordinance during any post-judgment
motions and while on appeal. R. 54, Pl.’s Stay Mot.; R.
55, Pl.’s Stay Br. On February 3, 2016, a day before the
Court issued its ruling on the jurisdiction issue and on
Leibundguth’s Rule 62 motion, but less than 28 days
after the Court had entered judgment on the parties’
motions for summary judgment, Leibundguth filed this
Rule 59(e) motion to alter or amend the December

62a
2015 Opinion. R. 63, Pl.’s Mot. to Amend J.; R. 64, Pl.’s
Amend J. Br. The next day, the Court issued an order
relinquishing supplemental jurisdiction over the Village’s remaining counterclaims and denying Leibundguth’s motion to stay enforcement of the Sign
Ordinance. R. 67, 02/04/16 Op. So all that remains is
Leibundguth’s motion to alter or amend judgment.
II.

Legal Standard

Under Federal Rule of Civil Procedure 59(e), a
party may, within 28 days of the entry of judgment,
move to alter or amend that judgment. Fed. R. Civ. P.
59(e). The granting of a Rule 59(e) motion “is only
proper when the movant presents newly discovered evidence that was not available at the time of trial” or
when the movant “clearly establishes a manifest error
of law or fact.” Burritt v. Ditlefsen, 807 F.3d 239, 253
(7th Cir. 2015) (internal quotation marks and citation
omitted); Fed. R. Civ. P. 59(e). The Seventh Circuit has
made clear that Rule 59(e) is not to be used as a vehicle
to “ ‘advance arguments that could and should have
been presented to the district court prior to the judgment,’ ” Cincinnati Life Ins. Co. v. Beyrer, 722 F.3d 939,
954 (7th Cir. 2013) (quoting Bordelon v. Chi. Sch. Reform Bd. of Trs., 233 F.3d 524, 529 (7th Cir. 2000)), or
to “rehash” arguments previously made and rejected,
Vesely v. Armslist LLC, 762 F.3d 661, 666 (7th Cir.
2014); Oto v. Metro. Life Ins. Co., 224 F.3d 601, 606 (7th
Cir. 2000). Rather, the Seventh Circuit has said that
reconsideration is allowed only when a “significant
change in [the] law has occurred,” or “new facts have

63a
been discovered,” or when a court has “misunderstood
a party,” “made a decision outside the adversarial issues presented to the court by the parties,” or “made
an error of apprehension (not of reasoning).” Broaddus
v. Shields, 665 F.3d 846, 860 (7th Cir. 2011), overruled
on other grounds by Hill v. Tangherlini, 724 F.3d 965,
967 n.1 (7th Cir. 2013); see also Bank of Waunakee v.
Rochester Cheese Sales, Inc., 906 F.2d 1185, 1191 (7th
Cir. 1990).
Because judgments are presumed final, reconsideration under Rule 59(e) is granted only when the moving party has shown that there is a compelling reason
to set the judgment aside. Bank of Waunakee, 906 F.2d
at 1191; Hecker v. Deere & Co., 556 F.3d 575, 591 (7th
Cir. 2009); Solis v. Current Dev. Corp., 557 F.3d 772, 780
(7th Cir. 2009). If a party seeks reconsideration based
on a “manifest error,” it must show a “wholesale disregard, misapplication, or failure to recognize controlling
precedent.” Oto, 224 F.3d at 606.
III.
A.

Analysis

Challenge to Sections 9.050(A) and (C)

Leibundguth first attacks the Court’s decisions on
the Sign Ordinance’s restrictions that limit the size
and number of wall signs permitted on a single lot,
§ 9.050(A) and (C)(1). Pl.’s Amend J. Br. at 2. Section
9.050(A) limits the total sign area to “1.5 square feet
per linear foot of tenant frontage,” and § 9.050(C)(1)
limits “[e]ach business or property owner” to “one wall
sign per tenant frontage along a public roadway or

64a
drivable right-of-way.” R. 36, Exh. A, Sign Ord.
§ 9.050(A) and § 9.050(C)(1). Leibundguth argues that
the Court incorrectly held that these restrictions apply only to commercial signs, and therefore, only to
commercial speech; according to Leibundguth, the restrictions apply to all signs and speech. Id. But in making this argument, Leibundguth disregards the fact
that the Court’s conclusion that § 9.050(A) and (C)(1)
apply only to commercial signs was based on the parties’ own arguments. Up until this point, both parties
seemingly agreed that the restrictions in § 9.050 restrict only commercial speech. 12/14/15 Op. at 26. That
is the position the Village took in its motion-to-dismiss
briefing, see id.; R. 25, Def.’s Mot. to Dismiss Reply Br.
at 4, and the position both parties took on summary
judgment, Def.’s Summ. J. Br. at 15; Pl.’s Summ. J. Br.
at 5.
Leibundguth now argues that “although [it] agrees
that Section 9.050 applies to commercial speech, it has
never claimed that Section 9.050 only applies to commercial signs.” Pl.’s Amend J. Br. at 2 (emphasis in
original). But a review of the record in this case refutes this. It is true, as Leibundguth points out, that
nothing in § 9.050 specifically states that it is limited
to commercial speech; it does not use the word “commercial” and it is entitled “Sign Regulations Generally.” Id.; R. 36, Exh. A, Sign Ord. § 9.050. But on
summary judgment, Leibundguth clearly asserted that
the restrictions in § 9.050(A) and (C)(1) apply only to
commercial speech—it was implied in Leibundguth’s

65a
responses to the Village’s statement of facts, and it was
explicit in Leibundguth’s briefing.
Specifically, in the Village’s Local Rule 56.1 Statement of Uncontested Material Facts, the Village
stated:
7. Section 9.050 regulates commercial signs,
(Ex. 2 § 9.050) and Section 9.050.A is a commercial sign size limitation. (Ex. 2, § 9.050.A).
Section 9.050.A permits up to 1.5 sq. ft. of
commercial signage per linear foot of tenant
frontage, not to exceed collectively 300 sq. ft.
per tenant. (Ex. 2, § 9.050.A).
8. Section 9.050.C is a limitation on the
number of commercial wall signs permitted
based upon the number of tenants having
frontage along a public roadway or drivable
right-of-way (Ex. 2, § 9.050.C.1).
R. 37, Def.’s Statement of Facts (DSOF) ¶¶ 7-8. Both of
these statements show that the Village viewed the restrictions in § 9.050(A) and (C)(1) as restricting only
commercial signs. Leibundguth, for its part, did not refute these statements. In both instances, Leibundguth
responded that the statements were “Undisputed.” R.
40, Pl.’s Resp. to DSOF ¶¶ 7-8. Leibundguth could have
challenged the Village’s position that § 9.050(A) and
(C)(1) apply only to commercial signs; it did not. Instead, it took the same position as the Village: that the
restrictions regulate commercial signs.
Leibundguth’s summary judgment briefing is
also crucial in making this point. Both Leibundguth

66a
and the Village agreed on summary judgment that
§ 9.050’s restrictions should be analyzed under Central
Hudson Gas & Electric Corp. v. Public Service Commission of New York, 447 U.S. 557 (1980), which only applies when a regulation restricts commercial speech.
Pl.’s Summ. J. Br. at 5-6; Def.’s Summ. J. Br. at 15. See
also R. 47, Pl.’s Summ. J. Reply Br. at 11 (“The parties
agree that the proper test in evaluating Leibundguth’s
First Amendment challenge to the size and number restrictions is the Central Hudson test[.]”). True, the
Court held that Central Hudson applied to these restrictions at the motion-to-dismiss stage, R. 29, 04/27/15
Dismissal Op., a fact which the Village noted in its
summary judgment briefing when addressing § 9.050,
Def.’s Summ. J. Br. at 15. But remember, the Court
reached that conclusion because the Village specifically asserted that the restrictions were commercial
restrictions, see R. 25, Def.’s Mot. to Dismiss Reply Br.
at 4 (stating that “only three specific commercial sign
regulations prohibit [Leibundguth’s] commercial signs”),
and at that time, the Court was simply considering
whether the complaint was sufficient to state a claim.
If Leibundguth wished to challenge the applicability of
Central Hudson to the restrictions in § 9.050 on summary judgment, it easily could have done so (or at a
minimum, Leibundguth could have preserved the argument by making note of it in its briefing). But Leibundguth did no such thing. Instead, Leibundguth
argued only that § 9.050(A) and (C)(1) failed under
Central Hudson. Leibundguth never asserted that
something other than Central Hudson applied or that

67a
the restrictions applied to more than just commercial
signs. At this stage, it is too late.
It is worth noting that Leibundguth did attack the
restrictions in § 9.050(A) and (C)(1) on summary judgment under the overbreadth doctrine. Pl.’s Summ. J.
Br. at 16. Leibundguth argued that even if the Village’s
restrictions in § 9.050(A) and (C)(1) “might be constitutionally applied to Leibundguth” (that is, might pass
muster as restrictions on commercial speech), the restrictions may nonetheless “conceivably be applied unconstitutionally to others,” (that is, to noncommercial
speakers) and thus, must be deemed “invalid” in “all
[their] applications.” Id. Out of context, this argument
could be viewed as supporting Leibundguth’s contention that it never asserted that § 9.050 applies only to
commercial signs. But when Leibundguth’s argument
is read in its entirety, it is clear that that is not the
case. In making this argument, Leibundguth relied not
only on § 9.050(A) and (C)(1), but also on an entirely
different section of the Ordinance, § 9.030, which Leibundguth identified as the non-commercial counterpart to § 9.050’s restrictions on commercial signs.
Section 9.030 exempts certain signs from needing a
permit (technically, all signs require a permit under
the Ordinance unless exempted, Sign Ord. § 9.080) depending on the content of the sign and whether the
sign meets the specific restrictions described in that
section for those types of signs. Pl.’s Summ. J. Br. at 1820; Pl.’s Summ. J. Reply Br. at 16-17; R. 36, Exh. A, Sign
Ord. § 9.030. Relying on these two sections, Leibundguth argued that when the two sections are viewed

68a
together—§ 9.030 and § 9.050—it is clear that the Ordinance’s size and number restrictions violate the overbreadth doctrine because they impose restrictions on
commercial speech (under § 9.050(A) and (C)(1)) that
are more favorable than some of the restrictions they
impose on non-commercial speech (under § 9.030), and
because they treat certain non-commercial speech better than other non-commercial speech. Pl.’s Summ. J.
Br. at 18-20; Pl.’s Summ. J. Reply Br. at 17. Although
the Court need not rehash its discussion on this issue,
the important point here is that even when making its
overbreadth argument, Leibundguth did not once suggest that the restrictions in § 9.050(A) and (C)(1) applied to anything other than commercial signs.
What Leibundguth is attempting to do here is
challenge, for the first time, the scope of § 9.050; and
more specifically, the Village’s contention that § 9.050(A)
and (C)(1) apply strictly to commercial signs. A motion
under Rule 59(e) is not the appropriate vehicle for a
first-time challenge like this. Cincinnati Life Ins. Co.,
722 F.3d at 954 (Rule 59(e) cannot be used to “advance
arguments that could and should have been presented
to the district court prior to the judgment.”). Leibundguth could have raised this argument on summary
judgment. It could have challenged whether § 9.050(A)
and (C) apply only to commercial signs (as opposed to
all signs generally) in its response to the Village’s Local
Rule 56.1 Statement and in its briefing, or at the very
least attempted to preserve the argument if it thought
the Court had already ruled that Central Hudson applied. It did not. It cannot now, on a Rule 59(e) motion,

69a
raise this argument for the first time. Id. Leibundguth
has failed to show that reconsideration is warranted
on this ground.
Leibundguth makes two additional arguments related to the restrictions in § 9.050(A) and (C)(1). First,
Leibundguth argues that the Court incorrectly held
that the Village provided sufficient evidence to show
that its restrictions in § 9.050(A) and (C)(1) advance
the Village’s interest in “improving aesthetics.” Pl.’s
Amend J. Br. at 11-14. Leibundguth argues that “the
Village’s ‘evidence’ regarding aesthetics”—that is, the
pictures the Village took of commercial signs in Downers Grove and nearby towns, and the conversations
between the Village and residents regarding the Sign
Ordinance—“consist[s] of nothing more than ‘speculation or conjecture,’ ” and does nothing to show the “specific [aesthetic] end the Village is seeking to achieve.”
Id. at 11-12 (emphasis in original). Leibundguth further asserts that the Village has advanced “conflicting
policies”; “it has argued that restricting the size and
number of wall signs improves aesthetics, but [it] . . .
has also asserted that granting Art Van Furniture significantly more and larger wall signs than the Ordinance allows would improve aesthetics.” Id. at 12
(emphases in original).
Leibundguth’s contention is problematic for a couple of reasons. The first is that Leibundguth raised
these same points during summary judgment, and is
now merely reemphasizing issues it thinks the Court
got wrong. Pl.’s Summ. J. Br. at 12-14 (discussing how
“mere speculation or conjecture” is insufficient, and

70a
how the Village has provided evidence only of the process it undertook); id. at 12 (discussing exemptions
given to Art Van Furniture); Pl.’s Summ. J. Reply Br. at
15-16 (same). See 12/14/15 Op. at 34-37 (rejecting these
same arguments). It is well settled that Rule 59(e) cannot be used to rehash old arguments. Vesely, 762 F.3d
at 666; Oto, 224 F.3d at 606.
The second problem for Leibundguth is that it is
seeking to impose a more rigorous standard than is required under Central Hudson. Leibundguth asserts
that the Village should have been required to identify
the specific aesthetic interest it was seeking to advance
through its restrictions. But a general interest in aesthetics is recognized as a significant governmental interest. Members of the City Council of Los Angeles v.
Taxpayers for Vincent, 466 U.S. 789, 805-06 (1984)
(“[M]unicipalities have a weighty, essentially esthetic
interest in proscribing intrusive and unpleasant formats for expression.”). And Leibundguth fails to cite to
anything that would indicate that a more specific
breakdown of that aesthetic interest is required for it
to pass muster under Central Hudson. Now, it is true
that the Village must provide some evidence to support
its asserted interest in aesthetics, and that the evidence must consist of something more than speculation or conjecture. Greater New Orleans Broad. Ass’n,
Inc. v. United States, 527 U.S. 173, 188 (1999); Edenfield
v. Fane, 507 U.S. 761, 770-71 (1993). But the evidence
need not be overwhelming; it can consist of “history,
consensus, and ‘simple common sense.’ ” Lorillard Tobacco Co. v. Reilly, 533 U.S. 525, 555 (2001); Lavey v.

71a
City of Two Rivers, 171 F.3d 1110, 1116 (7th Cir. 1999)
(explaining that City did not have to produce a voluminous record when common-sense restrictions were
involved). Despite Leibundguth’s contention to the
contrary, the Court remains convinced that the Village
has met this burden in this case. The Village clearly
studied the signs around town, as evidenced by the
hundreds of pictures Village officials took of commercial signs in town. R. 37-4, Exh. 1D at 267-348; R. 37-1,
Exh. 1A at 44 (Village Workshop Meeting Minutes
05/11/04: noting that the Plan Commission and Economic Development Commission have looked at signage within the context of “aesthetics”). Village staff
members also met regularly to discuss the town’s signage and policies, R. 37-1, Exh. 1A at 57 (Plan Commission Meeting Minutes 02/21/05: noting that “[t]he Sign
Subcommittee met almost weekly for 17 weeks for 2-3
hour meetings”), and asked for resident input on all
suggested amendments along the way, e.g., R. 37-1,
Exh. 1A at 55-91 (minutes from Plan Commission
Meetings on 02/21/05 and 02/28/05 where all proposed
amendments to the Sign Ordinance were discussed
and public input was sought). See also 12/14/15 Op. at
34; DSOF ¶¶ 13-14. These actions show that the Village did not rely on mere speculation when deciding
what restrictions to impose. What’s more, just as with
billboards, “[i]t is not speculative to recognize that
[large wall signs] by their very nature, wherever located and however constructed, can be perceived as an
‘esthetic harm,’ ” particularly when they are numerous.
Metromedia, Inc. v. City of San Diego, 453 U.S. 490, 510
(1981). This is common sense. The Village has provided

72a
enough evidence to support its aesthetic interest. Leibundguth has failed to provide any new evidence or
to cite to any case law that persuades the Court that
anything more is required, or that the Court committed a manifest error. Oto, 224 F.3d at 606 (manifest
error of law requires a showing of wholesale disregard
or misapplication of the law, or failure to recognize
controlling precedent).
Leibundguth’s next and final argument on the restrictions in § 9.050 is that the Court wrongly held that
the Village had established that its size and number
restrictions are narrowly tailored to advance the Village’s interest in aesthetics. Pl.’s Amend J. Br. at 14-15.
In particular, Leibundguth argues that the restrictions
are not narrowly tailored because “the Village has provided exemptions to the size and number restrictions
to some businesses and the Ordinance allows other
kind[s] of signs [such as window signs] without the
same size and number restrictions.” Id. at 14. But this
assertion is once again a mere rehash of an argument
previously made and rejected. Pl.’s Summ. J. Br. at 1113, 8-9; 12/14/15 Op. at 35-36, 36 n.13. It too fails to
meet the rigorous standard imposed under Rule 59(e)
for reconsideration to be warranted. Vesely, 762 F.3d at
666; Oto, 224 F.3d at 606.
B.

Challenge to Section 9.020(P)

Next, Leibundguth attacks the Court’s decision
on the Ordinance’s restriction on painted signs in
§ 9.020(P). R. 36, Exh. B, Am. Sign Ord. § 9.020(P)

73a
(banning “any sign painted directly on a wall, roof, or
fence”). Leibundguth asserts that the Court ignored
the fact that § 9.020(P)’s ban on painted signs excludes
flags and murals, making § 9.020(P) a content-based
restriction that should have been subject to strict scrutiny. Pl.’s Amend J. Br. at 3-4. As support, Leibundguth
points to a 2015 Village Staff Report that contains a
statement to that effect.3 Id. But contrary to Leibundguth’s contention, the Court did not ignore the fact that
a Village Staff Report, authored by the Village’s Planning Manager, Stanley Popovich, stated that purely
“decorative” flags and murals are not subject to the
painted sign ban. 12/14/15 Op. at 15 n.6; R. 36, Exh. C,
2015 Staff Report at 3. Leibundguth brought this point
up during summary judgment, Pl.’s Summ. J. Br. at 25, and the Court specifically addressed it in the December 2015 Opinion, 12/14/15 Op. at 15 n.6. The Court
3

In its reply brief, Leibundguth also cites the Village’s response to Leibundguth’s Local Rule 56.1 Statement of Undisputed Material Facts, suggesting that there too the parties agreed
that flags and murals are exempt from the painted sign ban. Pl.’s
Amend. J. Reply Br. 8 (citing R. 46, Def.’s Resp. to Pl.’s Statement
of Material Facts (PSOF) ¶ 33). But that paragraph merely refers
to the same 2015 Staff Report Leibundguth otherwise cites: “33.
The Village staff report accompanying [the Sign] Ordinance . . .
states: ‘There are instances of flags and murals painted on buildings and these are permitted by the code on the basis that they
are decorative, and do not convey constitutionally protected commercial or non-commercial speech.’ (Def. Exh. 4, Report of Plan
Commission, July 6, 2015, at 3.)[.]” Id. In its response, the Village
simply agreed that the Staff Report contains that statement:
“Undisputed that this statement is included as part of the overall
report referenced.” Id. So, although it might appear that Leibundguth cites to more than just the Staff Report to support its argument here, Leibundguth does not.

74a
was not then (and is still not) persuaded that Popovich’s statement in the Staff Report turns the Sign Ordinance’s ban on painted signs into a content-based
restriction. As explained in detail in the prior Opinion,
the actual text of the Sign Ordinance does not exempt any signs (decorative or otherwise) from the restriction, and the Village conceded on summary
judgment that any flag or mural that meets the definition of a “sign” is subject to the painted sign restriction,
despite Popovich’s statement to the contrary. Id.; R. 45,
Def.’s Summ. J. Reply and Resp. Br. at 1. Given the Village’s concession and the broad definition of “sign”
adopted by the Village in its Municipal Code, R. 40,
Exh. E, Village Muni. Code § 15.220, the Court held
that the restriction in § 9.020(P) was content-neutral.
12/14/15 Op. at 15 n.6. In its current motion, Leibundguth does not raise any new arguments or point to any
new evidence that convinces the Court that it erred in
reaching this conclusion.
Leibundguth does try to bolster its argument by
attaching to its Rule 59(e) brief a photo of a restaurant
in Downers Grove that has a painted American flag on
the side of its building, as well as a picture of the restaurant that was located there previously, which had
an Irish flag painted on the side of its building. R. 64,
Exh. A. Leibundguth argues that these pictures similarly show that the Village exempts flags and murals
from § 9.020(P)’s ban. Pl.’s Amend J .Br. at 3-4. These
photographs, however, were not in the record at summary judgment, and Leibundguth fails to provide a
valid explanation for why they could not have been

75a
produced earlier. Both photographs are dated. R. 64,
Exh. A. The photograph of the American restaurant appears to be from September 2015, and the photograph
of the Irish restaurant from September 2012. Id. Leibundguth did not file its reply brief in support of its
motion for summary judgment until October 2015. Pl.’s
Summ. J. Reply Br. These pictures could easily have
been included with that briefing. Leibundguth implies
that it could not have attached these photographs at
that time because the Staff Report was issued after
discovery had closed, and therefore, Leibundguth was
not able to take discovery on this point during summary judgment. Pl.’s Amend J. Br. at 4 n.1. But Leibundguth never objected to the introduction of the
Staff Report, or to the Village’s reliance on it, during
summary judgment. If Leibundguth had a problem
with the Staff Report it should have voiced its concern.
The same holds true for any additional discovery; if
Leibundguth wanted to take additional discovery after
the Staff Report came to light, it should have asked the
Court to do so. We are now at the motion to vacate
stage; Leibundguth’s decision to wait to raise its concerns until now comes too late. Salas v. Wis. Dep’t of
Corr., 493 F.3d 913, 924 (7th Cir. 2007); Witte v. Wis.
Dep’t of Corr., 434 F.3d 1031, 1038 (7th Cir. 2006) (recognizing that a party forfeits any argument it fails to
raise in a brief opposing summary judgment). These
photos do not present new evidence that can properly
be considered under Rule 59(e), and they do not show
that reconsideration is appropriate. Cincinnati Life
Ins. Co., 722 F.3d at 954 (Rule 59(e) is not to be used to
“advance arguments that could and should have been

76a
presented to the district court prior to the judgment[.]”).
Leibundguth separately argues that the Court
wrongly held that the Village satisfied is burden to
show that the Ordinance’s ban on painted signs is narrowly tailored to advance the Village’s asserted interest in aesthetics. Pl.’s Amend J. Br. at 4-9. Specifically,
Leibundguth argues that the Village has not provided
enough evidence to support its aesthetic interest, and
that it has not shown that its painted sign ban is narrowly tailored to achieve that interest. Id. But once
again, Leibundguth has failed to present any new, compelling evidence or to show that the Court committed
a manifest error. To support its aesthetic interest, the
Village provided copies of hundreds of photographs its
staff members took of signs around town before it
passed the Sign Ordinance, R. 37-4, Exh. 1D at 267348; it also included a copy of the 2015 Staff Report
previously discussed, which describes in detail the Village’s concerns with painted wall signs, R. 36, Exh. C,
2015 Staff Report at 3-5. Leibundguth takes issue with
the fact that nothing connects the photographs with
the Village’s asserted interest in aesthetics, and with
the fact that the 2015 Staff Report provides no support
for its assertions that painted signs require on-going
maintenance, are subject to water damage, and are
hard to remove. Id. at 6-7.
But these arguments do not establish that reconsideration is warranted; they simply highlight Leibundguth’s disagreement with the Court’s conclusion. Mere
disagreement is not sufficient to establish manifest

77a
error or to entitle a party to reconsideration. SengTiong Ho v. Taflove, 648 F.3d 489, 505 (7th Cir. 2011);
Oto, 224 F.3d at 606; see also King v. Cross, 2014 WL
1304320, at *2 (N.D. Ill. Mar. 28, 2014). As the Court
explained in the December 2015 Opinion, this evidence
is enough to show that the Village did not “blindly invoke” its stated concern over aesthetics, which is all
that the Village is required to show. Weinberg v. City of
Chi., 310 F.3d 1029, 1038 (7th Cir. 2002). The Village’s
photographs show that it took the time to study the
signs that were in use in the Village before implementing any new sign regulations, which inherently includes consideration of the overall aesthetic appeal of
those signs. And the 2015 Staff Report shows that the
Village carefully considered the effects of painted signs
before fully banning them. 12/14/15 Op. at 17-18. It is
perfectly reasonable to believe that Mr. Popovich, the
Village’s Planning Manager, has sufficient expertise to
draw the conclusions that he did in the Staff Report.
What’s more, Leibundguth’s painted wall sign also provides additional proof that the Village’s concerns are
real; the photo of Leibundguth’s painted wall sign on
the back of its building, which the Village provided on
summary judgment, shows the exact fading and chipping problems discussed by the Staff Report. R. 36,
Exh. D at 7-9. Leibundguth responds that its painted
sign looks the way it does because it has not “touched
[it] up” because of this lawsuit. Pl.’s Amend J. Br. at 9.
But that just goes to show that the Staff Report is correct in that painted signs require ongoing maintenance
or are otherwise likely to deteriorate, and that they are
prone to fading and chipping. R. 36, Exh. C, 2015 Staff

78a
Report at 3-4. This evidence remains sufficient to meet
the Village’s burden to show that its painted sign ban
advances its interest in town aesthetics. The Village
need only show that it did not “blindly invoke” its aesthetic concerns; it has done that.4 While Leibundguth
may disagree with the Court’s conclusion, as noted
above, a Rule 59(e) motion is not the proper vehicle to
air that difference of opinion. Seng-Tiong Ho, 648 F.3d
at 505; Oto, 224 F.3d at 606.
Leibundguth’s assertion that the painted sign ban
is not narrowly tailored to advance the Village’s aesthetic
interest suffers from a similar problem. Leibundguth
argues that the “deliberation and dialogue” between
the Village and its residents that occurred before the
original Sign Ordinance was passed does not support
the conclusion that the painted sign ban is narrowly
4

Leibundguth again points out that discovery had closed in
this case before the 2015 Staff Report came to light and before the
Village decided to amend § 9.020(P) to ban painted signs in all of
Downers Grove (previously, it had allowed painted signs in the
Downtown Business, Downtown Transitional, and Fairview Districts). Pl.’s Amend. J. Br. at 5 n.3, 6. According to Leibundguth,
without discovery, “there is no way to know whether the [2015
Staff ] Report accurately reflects real concerns about painted signs.”
Id. at 6. But again, Leibundguth could have moved to reopen discovery on this issue as soon as it became aware of the Staff Report
and the amendment, but it chose not to. Id. Leibundguth must
live with that decision. As the Court has already explained both
in this Opinion and in its prior opinions, this argument comes too
late; it has been forfeited. Leibundguth also has yet to explain
what discovery it would have taken related to the Staff Report.
See 02/04/16 Op. at 11 (explaining when Leibundguth raised this
same argument in its motion requesting a stay that Leibundguth
should have identified what discovery it would have taken).

79a
tailored for two reasons: because painted signs were
never specifically discussed at that time, and because
the discussions occurred in advance of the passing of
the original Sign Ordinance, which still allowed
painted signs in certain downtown business zones. Pl.’s
Amend J. Br. at 7-8. Leibundguth points out that almost no deliberation or dialogue occurred before the
passing of the amended (and the now current) ordinance, which completely bans painted signs. Id. at 8.
Although Leibundguth frames this argument as
one attacking whether the painted sign ban is narrowly tailored, it really attacks (again) whether the
Village’s asserted aesthetic interest is genuine, as that
is where the Court discussed the Village’s “deliberation
and dialogue.” 12/14/15 Op. at 17. Leibundguth is correct in that the Village, once upon a time, did allow
painted signs in certain districts, R. 36, Exh. A, Sign
Ord. § 9.020(P), but that is no longer the case, R. 36,
Exh. B, Am. Sign Ord. § 9.020(P), which makes any argument along these lines moot. Leibundguth also
failed to raise this issue during summary judgment,
something it certainly could have done. Cincinnati Life
Ins. Co., 722 F.3d at 954 (Rule 59(e) is not to be used to
“advance arguments that could and should have been
presented to the district court prior to the judgment.”).
In addition, that painted wall signs may not have been
explicitly discussed between the Village and its residents does not change the fact that the Village took the
time to study the town’s signs prior to implementing
any ban on painted signs (or any other restrictions for
that matter), and that it gave residents a chance to

80a
voice any concerns they may have had prior to the new
restrictions taking effect, including the restriction on
painted signs. This “deliberation and dialogue” was
also just one piece of evidence (and not the primary
piece) that the Court relied on in finding that the Village’s asserted aesthetic interest was real and that its
painted sign ban narrowly tailored. 12/14/15 Op. at 17.
The other piece of evidence was the 2015 Staff Report,
which the Court has already discussed and which addresses in detail the problems with painted signs. This
argument is rejected.
Leibundguth also asserts that the painted sign
ban is not narrowly tailored because it is underinclusive:
it still allows flags and murals to be painted on walls.
This is again an attempt by Leibundguth to rehash an
argument previously made. Leibundguth made this
same argument on summary judgment, Pl.’s Summ. J.
Reply Br. at 8, and the Court specifically addressed it
in its December 2015 Opinion, 12/14/15 Op. at 15 n.6.
Leibundguth is not entitled to reconsideration simply
because it does not like the result the Court reached.5

5

It is also worth emphasizing that “[t]he ‘requirement of
narrow tailoring is satisfied so long as the regulation promotes
a substantial government interest that would be achieved less effectively absent the regulation.’ ” Graff v. City of Chi., 9 F.3d 1309,
1321 (7th Cir. 1993) (quoting Ward v. Rock Against Racism, 491
U.S. 781, 799 (1989)). Here, the painted sign ban surely promotes
the Village’s aesthetic interest: it alleviates many of the concerns
regarding maintenance and building wear-and-tear that the Village emphasized in its 2015 Staff Report. Absent a ban like the
one imposed in § 9.020(P), these concerns would not be addressed

81a
C.

Challenge to Amended Section 9.050(C)(5)

Finally, Leibundguth contends that the Court
should not have held that Leibundguth’s challenge to
the Sign Ordinance’s ban on signs facing only the
BNSF railway (Count 3 of the Amended Complaint)
was moot. Pl.’s Amend J. Br. at 10. According to Leibundguth, the December 2015 Opinion “did not address Leibundguth’s challenge to Section 9.050(C)’s
limits [to] the size of wall signs along the BNSF railroad, which were properly pleaded as well as raised
in Leibundguth’s motion for summary judgment.”6 Pl.’s
Amend J. Reply Br. at 2. Leibundguth is correct on this
point. Technically, if Leibundguth had prevailed on
striking down the ban on painted wall signs in
§ 9.020(P), and also won on the size and number restrictions imposed in § 9.050(A) and (C)(1), then it is
possible that Leibundguth could still be found in violation of the Ordinance under the revised § 9.050(C)(5).
That section allows “lots with frontage along the BNSF
railroad” to display “one additional wall sign” facing
the railroad, provided the sign does “not exceed 1.5
square feet per linear foot of tenant frontage along the
as effectively. The Court remains unpersuaded that its holding
regarding the Sign Ordinance’s painted sign ban was incorrect.
6
Leibundguth did not specifically challenge the size restriction in § 9.050(C)(5) in its amended complaint, R. 10, Am.
Compl., no doubt because the amendment came out after Leibundguth had already filed that complaint. But it would certainly
have been better if Leibundguth had asked for leave to amend its
complaint again after the Village revised its restriction on wall
signs facing just the BNSF railroad. That would have given Leibundguth a chance to properly raise any relevant arguments in
its complaint against this amendment.

82a
BNSF railroad right-of-way.” R. 36, Exh. B, Am. Sign
Ord. § 9.050(C)(5). Neither party disputes that the
size of Leibundguth’s railway-facing sign exceeds
§ 9.050(C)(5)’s size limit. R. 46, Def.’s Resp. to Pl.’s
Statement of Material Facts (PSOF) ¶ 8. So, Leibundguth is right in that for Article III purposes, this claim
is not moot, because even if Leibundguth won summary judgment on the remainder of its claims, it could
still be found in violation of § 9.050(C)(5). The Court
will revise its judgment to reflect that Leibundguth’s
claim related to § 9.050(C)(5)’s size restriction is not
moot.
That said, Leibundguth has still not shown that it
is entitled to summary judgment on this claim. The
size restriction imposed under § 9.050(C)(5) is exactly
the same size restriction imposed under § 9.050(A) for
wall signs that face a public roadway or drivable rightof-way. Both may not exceed 1.5 square feet per linear
foot of tenant frontage.7 R. 36, Exh. A, Sign Ord.
§ 9.050(A); R. 36, Exh. B, Am. Sign Ord. § 9.050(C)(5).
So, for the same reasons that the size restriction in
§ 9.050(A) is constitutional, so too is the size restriction
in § 9.050(C)(5). In challenging § 9.050(C)(5), Leibundguth does not raise any new arguments or present any
new evidence. Instead, Leibundguth merely asserts
that the Court should hold that the size limitation for
7

Section 9.050(A) also includes an exception for buildings set
back more than 300 feet from the abutting roadway or public
right-of-way. R. 36, Exh. A, Sign. Ord. § 9.050(A). But that restriction has never been at issue because Leibundguth’s building
is not set that far back.

83a
signs facing the BNSF railway is “unconstitutional for
the same reasons that Section 9.050(A) [sic] size restrictions are unconstitutional.” Pl.’s Amend J. Br. at
10. Because Leibundguth has not shown that the
Court committed a manifest error in finding that
§ 9.050(A)’s size restriction is constitutional, it has
likewise failed to show that § 9.050(C)(5)’s restriction
should be found unconstitutional. Accordingly, while
the Court will revise its judgment to reflect that Leibundguth’s claim under revised § 9.050(C)(5) is not
moot for Article III purposes, reconsideration of the
Court’s decision to grant the Village summary judgment on this Count is not warranted.
IV.

Conclusion

For the reasons discussed above, Leibundguth’s
Rule 59(e) motion to alter or amend the December 2015
Opinion [R. 63] is denied. But the Court will revise its
judgment to reflect the fact that Leibundguth’s challenge to § 9.050(C)(5)’s size restriction is not moot for
Article III purposes, but that its claim is still dismissed
for the same reasons Leibundguth’s challenge to the
other size restriction in § 9.050(A) was dismissed.
ENTERED:
s/Edmond E. Chang
Honorable Edmond E. Chang
United States District Judge
DATE: June 29, 2016

84a
Downers Grove Zoning Ordinance
[9-1] Article 9 | Signs
Sec. 9.010 General .................................................. 9-1
Sec. 9.020 Prohibited Signs and Sign
Characteristics ...................................... 9-2
Sec. 9.030 Signs Allowed without a Sign Permit .. 9-3
Sec. 9.040 Temporary Signs ................................... 9-5
Sec. 9.050 Sign Regulations Generally .................. 9-6
Sec. 9.060 Sign Regulations for Downtown
and the Fairview Concentrated
Business District ................................. 9-10
Sec. 9.070 Special Sign Types .............................. 9-12
Sec. 9.080 Administration and Permits ............... 9-13
Sec. 9.090 Nonconforming Signs .......................... 9-14
Sec. 9.100 Illumination ........................................ 9-15
Sec. 9.110 Maintenance........................................ 9-15
Sec. 9.120 Enforcement ........................................ 9-15
Sec. 9.010

General

A. Purpose
The sign regulations of this article are established to create a comprehensive but balanced
system of sign regulations to promote effective communication and to prevent placement
of signs that are potentially harmful to motorized and non-motorized traffic safety, property

85a
values, business opportunities and community appearance. This article is adopted for
the following specific purposes:
1.

to preserve, protect and promote public
health, safety and welfare;

2.

to preserve the value of private property
by assuring the compatibility of signs
with surrounding land uses;

3.

to enhance the physical appearance of the
village;

4.

to enhance the village’s economy, business and industry by promoting the reasonable, orderly and effective display of
signs, and encouraging better communication between an activity and the public
it seeks with its message;

5.

to protect the general public from damage
and injury, that may be caused by the
faulty and uncontrolled construction and
use of signs within the village;

6.

to protect motorized and non-motorized
travelers by reducing distraction that
may increase the number and severity of
traffic accidents; and

7.

to encourage sound practices and lessen
the objectionable effects of competition
with respect to size and placement of
street signs.

86a
B. Applicability
The regulations of this article apply to all
signs in the village, unless otherwise expressly stated.
C. Public Health and Safety
No sign may be designed, constructed or
maintained in a manner that presents a danger to the public health, safety or welfare, as
determined by the village.
[9-2] D.

Content and Location
Except as otherwise expressly provided in this
article, the following regulations apply to all
signs:
1.

The content of signs is limited to the business, service, and activity available or
conducted on the subject lot.

2.

Unless otherwise specified in the Article,
signs are subject to setback regulations of
the subject zoning district.

3.

When a business or service does not have
direct access to a public street, signs directing traffic to the subject business or
service may be located off premises at the
nearest point of access. Such signs are
counted as part of the total allowable sign
area.

87a
Sec. 9.020
teristics

Prohibited Signs and Sign Charac-

The following are expressly prohibited under this ordinance:
[9-3] A. any sign or structure that constitutes a hazard to public health or safety;
B. any signs attached to utility, traffic signal poles,
light poles, or standards except for governmental
signs;
C. signs, that by their color, location, or design resemble or conflict with traffic control signs or signals;
D. except for governmental signs erected by, or on behalf of, the unit of government having jurisdiction,
no sign may be located on the public right-of-way,
or affixed to or upon public property. This prohibition includes any sidewalk, parkway, crosswalk,
curb, curbstone, street lamppost, hydrant, tree,
shrub, tree stake or guard, electric light or power,
CATV, telephone or telegraph system, fire alarm,
lighting system, public bridge, drinking fountain,
trash receptacle, street sign or traffic sign;
E. portable signs, except for sandwich board signs
that are allowed in the DB, DT and Fairview concentrated business districts;
F.

vehicle signs when the vehicle is not licensed, insured or operational;

G. advertising off-premise signs;
H. moving signs;
I.

LED and flashing signs;

88a
J.

signs with bare bulb illumination, except for marquees located in the DB, DT or Fairview concentrated business districts;

K. attention-getting devices;
L.

signs containing exposed gas tubing, exterior to
the building, including argon and neon;

M. roof signs;
N. box-type signs in the DB, DT or Fairview concentrated business districts;
O. any sign that advertises, identifies, or pertains to
a business no longer conducted, or a product no
longer sold, on the premises where such sign is located, within the previous 30 days;
P.

any sign painted directly on a wall, roof, or fence,
except in the DB, DT or Fairview concentrated
business district;

Q. any sign placed or attached to a telecommunications tower, pole or antenna;
R. signs containing manual changeable copy consisting of more than 2 lines, except that fueling stations,
governmental agencies, schools and religious assembly uses have up [sic] 4 lines of manual
changeable copy. The changeable copy surface area
is included in the total surface area allowed;
S.

signs containing electronic changeable copy/message board;

T.

single pole signs with a base of less than 2 feet in
width; and

89a
U. any other sign not expressly permitted in this article.
Sec. 9.030

Signs Allowed without a Sign Permit

The following signs do not require a sign permit and
are subject to the following regulations:
[9-4] A. Governmental signs, public signs and other
signs incidental to those signs for identification,
information or directional purposes erected or required by governmental bodies, or authorized for
a public purpose by any law, statute or ordinance.
B. Railroad crossing and signs of public utility companies indicating danger or that serve as an aid to
public safety or that show the location of underground facilities.
C. Street address signs up to 4 square feet in area.
D. Decorations temporarily displayed in connection
with a village-sponsored or approved event or a
generally recognized or national holiday.
E. Temporary signs at a residence commemorating a
personal event, such as a birth, birthday, anniversary or graduation.
F.

“No trespassing” or similar signs regulating the
use of property, provided such signs are no more
than 2 square feet in area.

G. Noncommercial flags of any country, state or unit
of local government.
H. Real estate signs, provided that in residential zoning districts, real estate signs may not exceed 5.5

90a
square feet in area, including all attached tags. In
nonresidential zoning districts, real estate signs
may not exceed 36 square feet in area. Real estate
signs may be used solely for advertising the sale,
rental or lease of the property where such sign is
located. Real estate signs may not exceed 10 feet
in height. No more than one real estate sign is allowed per lot where such lot contains a single use,
except on a corner lot one real estate sign is allowed per street frontage. When a lot contains
multiple uses one real estate sign is allowed per
use. Real estate signs may not be placed in the
public right-of-way, except that “open house” signs
may be placed in the public right-of-way on Friday,
Saturday and Sunday of the weekend that the
open house will take place. Such open house signs
may be posted only between the hours of 5:00 a.m.
Friday to 10:00 p.m. on Sunday, provided that:
1.

the open house sign may not exceed 4 square
feet in area;

2.

the open house sign must be freestanding, not
attached to any utility pole, traffic control sign
or other similar structured [sic] and must be
placed at least 3 feet from the curb or edge of
the pavement;

3.

only one open house sign is permitted within
150 feet of another sign that relates to the
same address. There may be only one open
house sign relating to the same address
placed in [sic] on a single lot;

4.

no attention-getting or attracting devices may
be attached to any open house sign;

91a
5.

each open house sign must have attached to it
an adhesive label or other means to identify
the name, address and telephone number of
the person responsible for placement and removal of the sign; and

6.

a minimum fine of $75.00, per Section 1.16(f )
of the municipal code, will be levied on the
person whose name is on the sign if the sign
does not comply with the preceding regulations. If no names are found on the sign the
fine will be levied on the owner of the property
identified on the sign.

[9-5] I. Political signs and noncommercial signs, provided that total area of all such signs together may
not exceed a maximum area of 12 square feet per
lot. Political and noncommercial signs may not be
placed in the public right-of-way.
J.

Garage sale, rummage sale, yard sale and estate
sale signs, provided that such signs may be placed
in the public right-of-way only on Friday, Saturday, Sunday and federal holidays that are observed on Mondays of the weekend that the sale
will take place. Such sale signs may be posted only
between the hours of 5:00 a.m. Friday to 10:00
p.m. on Sunday, provided that:
1.

the sign may not exceed 4 square feet in area;

2.

the sign must be freestanding, not attached to
any utility pole, traffic control sign or other
similar structured and must be placed at least
3 feet from the curb or edge of the pavement;

3.

only one sale sign is permitted within 150 feet
of another sign that relates to the same

92a
address. There may be only one sale sign relating to the same address placed in on a single lot;
4.

no attention-getting or attracting devices may
be attached to any sale sign;

5.

each sale sign must have attached to it an adhesive label or other means to identify the
name, address and telephone number of the
person responsible for placement and removal
of the sign; and

6.

a minimum fine of $75.00, per Section 1.16(f )
of the municipal code, will be levied on the
person whose name is on the sig if the sign
does not comply with the preceding regulations. If no names are found on the sign the
fine will be levied on the owner of the property
identified on the sign.

K. Memorial signs and tablets, names of buildings
and date of erection when cut into masonry surface or inlaid so as to be part of the building or
when constructed of bronze or other noncombustible material.
L.

“Help wanted” signs up to 2 square feet in area.
The “help wanted” sign text must be the predominant text on the sign. Help wanted signs may only
be located on a window or door.

M. Public notice signs are permitted on property that
is the subject of a public meeting or hearing. Such
signs may not exceed 9 square feet in area or 6 feet
in height.

93a
N. Vehicle signs are allowed when the vehicle to
which the sign is attached is licensed, insured, and
operational. The vehicle must be used for the operation of the business and may not remain stationary for an extended period of time for the
purpose of attracting attention to a business.
O. Up to one contractor sign is allowed per lot. Such
sign may not exceed 6 square feet in area and
must be removed upon completion of related work.
Sec. 9.040

Temporary Signs

Temporary signs as identified in this article may be
permitted for promoting special community activities,
special events, grand openings for businesses, or the
activities of nonprofit organizations, subject to the issuance of a sign permit and compliance with the following regulations.
[9-6] A. No more than 8 permits for temporary signs
may be issued in any calendar year for a single lot.
Permits may be valid for a maximum period of 7
days. Applications for temporary sign permits
must be approved by the village and must contain
at minimum a general description of the sign, including size and lighting.
B. All temporary signs must be properly maintained
while displayed and be able to withstand all
weather elements.
C. Temporary signs may not contain changeable copy.
D. Temporary signs may not exceed 32 square feet in
area.

94a
E. A maximum of one temporary sign may be permitted for each street frontage on a lot.
F.

All temporary signs must be removed by the person or organization that erected or caused the
erection of the sign within 3 days of the end of the
event to which they relate, or at the end of the
maximum period for which the sign is allowed,
whichever date comes first.

G. Temporary window signs are exempt from sign
permit requirements. However, unless they are
promoting an upcoming event of a nonprofit
agency, such temporary window signs are subject
to the restrictions regarding allowable area for
window signs.
H. Temporary signs may not be located above the first
floor in the DB, DT and Fairview Avenue Concentrated Business Districts.
I.

The following additional regulations apply to all
(temporary) development signs.
1.

A sign permit must be obtained before the
erection of any development sign. A sign permit may be issued in connection with the following types of developments after the village
has issued a final approval for the development.
a.

Residential developments of 3 or more
dwelling units.

b.

Commercial, industrial or institutional
developments consisting of at least
20,000 square feet of land area.

95a
2.

Only one development sign per street frontage
is permitted.

3.

Development signs may not exceed 36 square
feet in area.

4.

Development signs must be removed at such
time a final certificate of occupancy is issued.
If more than one final certificate of occupancy
will be issued for the development, the development signs must be removed when at least
75% of the final certificates of occupancy have
been issued.

5.

Development signs may display only information pertinent to the entity or entities participating in the development project.

Sec. 9.050

Sign Regulations Generally

The regulations of this section (Sec. 9.050) apply to
signs in all areas of the village except the DB and DT
zoning districts and the Fairview concentrated business district.
A. Maximum Total Sign Area
The maximum allowable sign area may not
exceed 1.5 square feet per linear foot of tenant
frontage, plus any signs expressly excluded
from maximum sign area calculations. Buildings set back more than 300 feet from the
abutting street right-of-way are allowed a
maximum [9-7] allowable sign area of 2
square feet per linear foot of tenant frontage,
plus any allowed excluding menu boards,

96a
window and temporary signs. In no case, may
a single tenant exceed 300 square feet in total
sign surface area.
B. Monument Signs and Shingle Signs
Unless otherwise expressly stated, each lot is
allowed either one monument sign or one
shingle sign.
1.

Monument Signs
a.

Monument signs are limited to a
maximum of 2 sign faces and are subject to the height and area limitations of Table 9-1.

Table 9-1: Monument Sign Height and
Area Regulations
Lot Size
260 ft. or
Greater Lot
Width and
Monument Less than
100-259 ft. at Least 2.5
Sign Regu- 100 ft. Lot
Lot Width Acres in Area
lations
Width
(B-3 District
only)
Maximum
Height (feet)

8

10

15

Maximum
Area (sq. ft.)

24

36

60

97a
b.

Monument signs must be set back
at least 10 feet from all street
rights-of-way and at least 25 feet
from all other lot lines. Monument
signs that are greater than 10 feet
in height and 36 square feet in size
must be set back at least 100 feet
from interior (non-street) lot lines.

c.

Monument signs are subject to the
intersection visibility regulations of
Sec. 10.020.

d.

Monument signs must display the
address number of the subject property with numbers or characters between 8 and 10 inches in height.
Address numbers are excluded
when calculating the area of the
monument sign.

e.

Lots with more than one street
frontage are allowed 2 monument
signs, provided the signs are located
on different street frontages and
separated by a minimum distance of
100 feet.

f.

The base of all monument signs
must be landscaped. Every permit
application for a monument sign
must be accompanied by a landscape plan demonstrating compliance with the following standards:
(1) Signs must be surrounded by a
landscaped area of at least 3 feet

98a
in width, measured outward
from the face of the sign.
(2) Landscaping within the required
landscape area must consist of
shrubs, evergreens, perennial or
annual flowers, ornamental
grasses, vegetative ground cover
or some combination of such live
plants. Sodded, seeded, mulched
or rocked areas may not be
counted as meeting these monument sign landscaping requirements.
(3) Monument sign landscaping is
subject to the landscape maintenance provisions of Sec. 8.060I.
[9-8] 2.
Multi-tenant
ters

Shopping

Cen-

a.

Multi-tenant shopping centers located on lots with more than 500 feet
of street frontage are allowed 2 monument signs, provided the signs are
separated by a minimum distance of
200 feet. Such signs may not exceed
15 feet in height or 60 square feet in
area and must contain the names of
more than one tenant. A shopping
center tenant’s panel sign is not
counted toward allowable sign surface area.

b.

Multi-tenant shopping centers located on lots with 100 to 500 feet of

99a
street frontage are allowed a maximum of one monument sign. The sign
may not exceed 10 feet in height or
36 square feet in area and must contain the names of more than one tenant. A shopping center tenant’s panel
sign is not counted toward allowable
sign surface area.
c.

3.

Multi-tenant shopping centers located on lots with less than 100 feet
of street frontage age [sic] are allowed a maximum of one monument
sign. The sign may not exceed 8 feet
in height or 24 square feet in area
and must contain the names of more
than one tenant. A shopping center
tenant’s panel sign is not counted toward allowable sign surface area.

Tollway Corridor
Signs on lots abutting the right-of-way of
I-88 or I-355 are subject to all regulations
of this article, with the following exceptions:
a.

In addition to the monument sign
otherwise allowed by Sec. 9.050B,
one additional monument sign is allowed for lots with a minimum frontage of 100 feet along the tollway or on
IDOT frontage along the tollway.

b.

The additional monument sign must
be placed adjacent to the tollway and
may not exceed 225 square feet in

100a
area or 20 feet in height. The additional monument sign will not be
counted in calculating the lot’s total
sign area.
c.

4.

Monument signs must be separated
by a minimum distance of 30 feet
from any existing tollway signs.

Shingle Signs
The maximum allowed sign area of a
shingle sign is 10 square feet per side.
The maximum allowed height is 7 feet.
Shingle signs must be set back at least 8
feet from interior lot lines. No street setback applies.

C. Wall Signs
1.

Each business or property owner is allowed to display one wall sign per tenant
frontage along a public roadway or drivable right-of-way.

2.

If the structural support of a wall sign is
visible it must be the same color as the
exterior building to which it is attached.

3.

Wall signs may not cover (wholly or partially) any wall opening, and may not extend beyond the perimeter of the wall to
which it is attached or extend more than
12 inches from the vertical plane of the
wall to which it is attached.

[9-9] 4.
Buildings with a height of 4 stories
or more are allowed one wall sign on
up to 3 sides of the building, with a

101a
maximum area of 100 square feet per
sign. Such wall signs are not counted in
calculating maximum allowable sign
area.
D. Menu Boards
Menu boards for restaurants are allowed on
the exterior wall of the business. Such signs
may not exceed 4 square feet in area. The
menu board area is not counted in calculating
maximum allowable sign area. The menu
board sign may include menus or notice of
special events including community events.
All menu board signs must be enclosed in a
tempered glass or Plexiglas frame.
E. Projecting Signs
1.

First Floor
Each first floor establishment is allowed
one projecting sign. Such signs may not
extend more than 36 inches from the vertical plane of the façade to which it is attached and may not exceed 6 square feet
in area. First floor projecting signs must
be placed to allow at least 8 feet of vertical clearance above the ground directly
beneath the sign. Projecting signs may
not be internally illuminated.

2.

Second Floor
The second floor of any building is allowed only one projecting sign, which

102a
must be located immediately over or
within 2 feet of the first floor pedestrian
access to the building. Such signs may not
extend more than 36 inches from the vertical plane of the façade to which it is attached and may not exceed 6 square feet
in area. The projecting signs must be
placed to allow at least 8 feet of vertical
clearance above the ground directly beneath the sign. Projecting signs may not
be internally illuminated.
F. Awning Signs
Awning or canopy signs are allowed, subject
to the following requirements:
1.

Awnings and canopies may not extend
above the first floor of the building to
which it is attached and must be constructed and erected so that the lowest
portion of the awning or canopy is at least
8 feet above the ground directly beneath
it.

2.

Awning or canopy signs may include only
the name, address, and logo of the business conducted within the building. No
advertising may be placed on any awning
or canopy sign. Lettering must be painted
or otherwise permanently affixed to the
awning or canopy.

103a
G. Under-Canopy Signs
Under-canopy signs must be attached to the
underside of the soffit or ceiling of a canopy.
The face of any such sign may not exceed 12
inches in height or 4 feet in length. Such signs
must be placed to allow at least 8 feet of vertical clearance above the ground directly beneath the sign.
H. Window Signs
1.

First floor businesses are allowed permanent and temporary window signs covering a maximum of 25% of each window.
The window sign area is in addition to the
total maximum allowable sign area.

[9-10] 2. Businesses located above the first
floor are allowed permanent window
signs of individual letters or etching, covering up to 25% of one window per floor
per tenant.
Sec. 9.060 Sign Regulations for Downtown and
the Fairview Concentrated Business District
The regulations of this section (Sec. 9.060) apply in the
DB and DT zoning districts and the Fairview concentrated business district.
A. Maximum Total Sign Area
The maximum allowable sign area may not
exceed one square feet per linear foot of

104a
tenant frontage or 300 square feet, whichever
is less, plus any signs expressly excluded from
maximum sign area calculations.
B. Box Signs Prohibited
Box-type signs are prohibited.
C. Monument, Shingle and Freestanding Signs
Unless otherwise expressly stated, each lot is
allowed either one monument sign, one shingle sign or one freestanding sign, subject to
the following regulations.
1.

Monument Sign

Monument signs may not exceed 20
square feet in area per side or a height of
7 feet. Monument signs must be set back
at least 8 feet from all interior lot lines.
No street setback applies.
2.

Shingle Sign

Shingle signs may not exceed 10 square
feet in area per side or a height of 7 feet.
Shingle signs must be set back at least 8
feet from all interior lot lines. No street
setback applies.
3.

Freestanding Sign

Freestanding signs may not exceed 20
square feet in area per side or a height of
7 feet. Freestanding signs must be set

105a
back at least 8 feet from all interior lot
lines. No street setback applies.
D. Landscaping
The base of all freestanding and monument
signs must be landscaped. Every permit application for a monument sign must be accompanied by a landscape plan demonstrating
compliance with the following standards:
1.

Signs must be surrounded by a landscaped area of at least 3 feet in width,
measured outward from the face of the
sign.

2.

Landscaping within the required landscape area must consist of shrubs, evergreens, perennial or annual flowers,
ornamental grasses, vegetative ground
cover or some combination of such live
plants. Sodded, seeded, mulched or
rocked areas may not be counted as meeting these landscaping requirements.

3.

Freestanding and monument sign landscaping is subject to the landscape
maintenance provisions of Sec. 8.0601.

[9-11] E.
1.

Wall Signs
Each business or property owner is allowed to display one wall sign per tenant
frontage along a public roadway or drivable right-of-way.

106a
2.

If the structural support of a wall sign is
visible it must be the same color as the
exterior building to which it is attached.

3.

Wall signs may not cover (wholly or partially) any wall opening, and may not extend beyond the perimeter of the wall to
which it is attached or extend more than
12 inches from the vertical plane of the
wall to which it is attached.

F. Menu Boards
Menu boards for restaurants are allowed on
the exterior wall of the business. Such signs
may not exceed 4 square feet in area. The
menu board area is not counted in calculating
maximum allowable sign area. The menu
board sign may include menus or notice of
special events including community events.
All menu board signs must be enclosed in a
tempered glass or Plexiglas frame.
G. Projecting Signs
1.

First Floor
Each first floor establishment is allowed
one projecting sign. Such signs may not
extend more than 36 inches from the vertical plane of the façade to which it is attached and may not exceed 6 square feet
in area. First floor projecting signs must
be placed to allow at least 8 feet of vertical clearance above the ground directly

107a
beneath the sign. Projecting signs may
not be internally illuminated.
2.

Second Floor
The second floor of any building is allowed only one projecting sign, which
must be located immediately over or
within 2 feet of the first floor pedestrian
access to the building. Such signs may not
extend more than 36 inches from the vertical plane of the façade to which it is attached and may not exceed 6 square feet
in area. First floor projecting signs must
be placed to allow at least 8 feet of vertical clearance above the ground directly
beneath the sign. Projecting signs may
not be internally illuminated.

H. Awning Signs
Awning or canopy signs are allowed, subject
to the following requirements:
1.

Awnings and canopies may not extend
above the first floor of the building to
which it is attached and must be constructed and erected so that the lowest
portion of the awning or canopy is at least
8 feet above the ground directly beneath
it.

2.

Awning or canopy signs may include only
the name, address, and logo of the business conducted within the building. No
advertising may be placed on any awning
or canopy sign. Lettering must be painted

108a
or otherwise permanently affixed to the
awning or canopy.
I.

Under-Canopy Signs
Under-canopy signs must be attached to the
underside of the soffit or ceiling of a canopy.
The face of any such sign may not exceed 12
inches in height or 4 feet in length. Such signs
must be placed to allow at least 8 feet of vertical clearance above the ground directly beneath the sign.

[9-12] J.

Window Signs
1.

First floor businesses are allowed permanent and temporary window signs covering a maximum of 25% of each window.
The window sign area is in addition to the
total maximum allowable sign area.

2.

Businesses located above the first floor
are allowed permanent window signs of
individual letters or etching, covering up
to 25% of one window per floor per tenant.
Window signs above the first floor may
not be illuminated by means of exposed
gas tubing including, but not limited to,
argon, neon or neon-like substances.

K. Heritage Signs
Signs in place in the DB or DT zoning districts
or Fairview concentrated business district before January 1, 1965 are hereby deemed to be
“heritage signs” and are allowed to remain in

109a
place and be maintained in any manner to allow for continued use. In order to be deemed a
“heritage sign,” the owner of the sign must
provide conclusive evidence to the community
development director that the sign was in
place before January 1, 1965.
L. Sandwich Board Signs
First floor businesses are allowed up to one
sandwich board sign, not to exceed 6 square
feet in area. They are not counted in calculating the maximum sign area allowed on a lot.
Sandwich board signs are allowed within the
public right-of-way, provided the following requirements are met:
1.

A license agreement must entered into in
a form and amount approved by the village indemnifying and holding the village
harmless from liability and naming the
village, its officers and employees as an
additional insured on a general liability
insurance policy. Such license agreements require the approval and signature
of the village manager.

2.

Sandwich board signs may be displayed
only during business hours and must be
removed each day at the end of business.

3.

Sandwich board signs may not be placed
in any location where the paved area for
passage is reduced to less than 6 feet or
within 15 feet of any intersection, driveway or crosswalk.

110a
4.

Sandwich board signs must be constructed of wood, metal or durable plastic.

5.

The minimum fine for a violation of these
sandwich board sign regulations is $750.
Each day that such violation continues
constitutes a separate fineable offense.

Sec. 9.070

Special Sign Types

A. Ornamental Entry Gate Signs
Ornamental entry gate signs are allowed at
the entry to a development along an arterial
or collector street, subject to the following regulations:
1.

The maximum area of any ornamental
entry gate sign in a residential zoning
district is 25 square feet, and the maximum height is 8 feet.

2.

The maximum area of any ornamental
entry gate sign in a manufacturing zoning district is 50 square feet, and the
maximum height is 10 feet.

[9-13] 3. In residential zoning districts, the
sign may display only the name of the
subdivision or development.
4.

In manufacturing zoning districts, the
sign may display only a directory for an
industrial subdivision or an industrial
park.

5.

One ornamental entry gate sign may be
located on each side of the point of ingress

111a
to the development, but not in the public
right-of-way or otherwise upon public
property. Any ornamental entry gate sign
on public property before August 1, 2006
may remain in place, subject to approval
of a fully executed license agreement with
the village.
B. Home Occupation Signs
Permitted home occupations are allowed one
sign per lot, subject [sic] the following regulations.
1.

The sign must be flat-mounted against
the principal building.

2.

The sign may not exceed 2 square feet in
area.

3.

The sign may display only the name, address, phone number and occupation.

4.

The sign may not be directly or indirectly
illuminated, other than by those lights incidental to the residential use of the
premises.

C. Signs Accessory to Parking Areas
Signs directing and guiding vehicular ingress
and egress to public or private off-street parking areas may not exceed 2 square feet in sign
area. No more than 2 such signs are allowed
at each point of ingress/egress from the parking area. One sign with a maximum sign area
of 4 square feet may be maintained on each

112a
street side of a parking area for the purpose of
designating the conditions of use or identity of
the parking area. Signs accessory to parking
areas are not included in calculating the total
sign area on a lot. Signs accessory to parking
areas must be set back at least 3 feet from the
public right-of-way.
D. Institutional Signs
Exterior identification signs up to 20 square
feet in area and a maximum height of 6 feet
are allowed on the site of a public, charitable
or religious assembly use. No more than one
such sign is allowed per lot. Changeable copy
consisting of a maximum of 4 lines is allowed.
The changeable copy area is included in calculating the total sign area on a lot.
E. College and University Signage
Any educational campus with an area of 40
acres or more is subject to the regulations of
this section. Entry monument signs are allowed at the perimeter of the campus on private property. The monument sign may not
exceed 6 feet in height or 50 square feet in
area, including ornamentation. Entry monument signs must be set back at least 40 feet
from all curb lines. Exterior building identification may consist of no more than one monument sign on each side of the primary building
entrance.

113a
Sec. 9.080

Administration and Permits

Except as otherwise expressly stated, all signs require
a permit.
A. Application
Any person or activity proposing to erect or
display a sign must file an application on a
form provided by the village, which must include a plat of survey.
[9-14] B.

Fees

All applicable permit fees as established in
the User-Fee, License & Fine Schedule must
be paid in full.
C. Conformance with the National Electrical
Code
All signs in which electrical wiring and connections are required for direct or indirect illumination must comply with all applicable
provisions of the National Electrical Code.
D. Wind Pressure and Dead Load Requirements
Signs must be designed and constructed to
withstand a wind pressure of at least 40
pounds per square foot of net surface area and
to receive dead loads as required in the building code.

114a
E. Insurance and Bond Requirements
Every applicant for a sign that will extend
over a public right-of-way or that is so located
that it may fall upon the public right-of-way,
must file with the community development director an encroachment license agreement indemnifying the village and holding the village
harmless from any liability. The applicant
must also provide a liability insurance policy
covering all damage or injury that might be
caused by such signs, or certificate of insurance therefore, issued by an insurance company authorized to do business in the state of
Illinois and satisfactory to the community development director, with limits of liability of
not less than $1,000,000 for property damage
and $1,000,000 for personal injuries. The village, its officers, agents and employees must
be named as additional insured. Such liability
insurance policy must be maintained in force
throughout the life of the permit, and if at any
time it is not in full force, the permit must be
revoked.
F. Completion of Authorized Work
If the work authorized under a sign permit
has not been completed within 6 months of
the date of issuance, the permit becomes null
and void.

115a
Sec. 9.090

Nonconforming Signs

Any sign that existed lawfully on the effective date of
the sign regulations of this article that remains or becomes nonconforming by reason of adoption of these
sign regulations or because of subsequent amendments to these sign regulations, or that become nonconforming by reason of annexation to the village of
the lot on which the sign is located, are considered nonconforming signs and their continuance is allowed in
accordance with the following regulations:
[9-15] A. Ordinary repairs and maintenance, including the removing and replacing of the outer panels
is permitted, provided that the panels are replaced
with identical panels and that no structural alterations or other work that extends the normal life
of the nonconforming sign is permitted.
B. Single panels on multi-panel monument signs for
multi-tenant shopping centers may be changed to
reflect tenant changes.
C. No repair or alteration that increases the size of
the nonconforming sign is permitted.
D. No nonconforming sign may be moved in whole or
in part to any other location on the same or any
other premises unless every portion of such sign is
made to conform to all of the regulations of these
sign regulations.
E. If a nonconforming sign is located on property that
is sold, with the full ownership of the property being transferred, the nonconforming sign must be
brought into conformance with the sign regulations of this article at the time of the transfer

116a
unless the business will continue to operate under
the same name.
F.

If a nonconforming sign is abandoned or the described business discontinued for a continuous period of 30 days or more, it must be discontinued
and any subsequent sign must conform to all of the
sign regulations of this article.

G. On or prior to May 5, 2014 all nonconforming signs
must be brought into conformance with the sign
regulations of this article. This period is for all
purposes deemed an appropriate amortization period for each and every nonconforming sign presently located within the corporate limits of the
village or hereinafter located within the village by
reason of annexation into the village of the lot or
parcel on which the sign is located. Such amortization period shall be non-compensated.
H. Paragraph G does not apply to signs previously
granted variances by the zoning board of appeals.
Such signs are deemed nonconforming signs to
which all other provisions of this section apply.
Sec. 9.100

Illumination

Except as otherwise expressly stated, internally or externally illuminated signs are allowed, provided they
comply with the following requirements:
A. Signs may be illuminated only by steady, stationary light sources directed solely at the sign or internal to it so that the light intensity or brightness
does not create a nuisance to adjacent property or
a traffic hazard.

117a
B. Individual letters or logos may be internally illuminated. All other portions of the sign must be
opaque.
C. Signs may not be illuminated by exposed reflective
type bulbs, exterior exposed neon, fluorescent, incandescent or strobe lights.
Sec. 9.110

Maintenance

All signs must be properly maintained, which includes
repair or replacement of all broken or missing parts,
elimination of rust or oxidation, elimination of faded or
chipped paint, and correcting all similar conditions of
disrepair. If a sign is illuminated, the source of such
illumination must be kept in a state of safe working
order at all times. Failure to properly maintain any
sign constitutes a violation of this zoning ordinance.
Sec. 9.120

Enforcement

The community development director is hereby authorized and directed to enforce all of the provisions of
this article. Upon presentation of proper credentials,
village personnel may enter, at reasonable times, any
building, structure or premises to perform any duty
imposed under this article.
[9-16] A.

Notice of Violation

If the community development director finds
that any sign has been erected in violation of
the provisions of this article, or is unsafe or
insecure, the community development director must issue a citation and/or cause the sign

118a
to be removed by the village upon 10 days
written notice. However, the community development director may cause any sign that
poses an immediate threat of harm to persons
or property to be removed summarily and
without notice. The cost of such removal will
be collected from the owner and/or occupant of
the property by an action at law or assessed
as a lien against the subject property after notice to the property owner.
B. Temporary Signs
If the community development director finds
that any temporary sign has been erected in
violation of the provisions of this article, or is
unsafe or insecure, written notice must be
provided to the owner and/or occupant of the
property on which the sign is located or to the
person or organization whose message is on
the sign. If the sign is not removed or altered
to comply with the provisions of this article
within 24 hours of such notice, the community
development director must cause such sign to
be removed by the village without further notice. The owner and occupant of the property
are jointly responsible for the cost of such removal, which may be recovered by the village
in an action at law or by filing a lien against
the property after notice to the property
owner.

